<html>
<title> - DOE ENVIRONMENTAL MANAGEMENT PROGRAM</title>
<body><pre>[Senate Hearing 107-808]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-808
 
                  DOE ENVIRONMENTAL MANAGEMENT PROGRAM
=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

  TO EXPLORE THE DEPARTMENT OF ENERGY'S PROGRESS IN IMPLEMENTING ITS 
ACCELERATED CLEANUP INITIATIVE AND THE CHANGES DOE HAS PROPOSED TO THE 
        ENVIRONMENTAL MANAGEMENT SCIENCE AND TECHNOLOGY PROGRAM

                               __________

                             JULY 11, 2002


                      Printed for the use of the
               Committee on Energy and Natural Resources









                           U.S. GOVERNMENT PRINTING OFFICE
83-682                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                     John Kotek, Legislative Fellow
                        Colleen Deegan, Counsel







                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     1
Bunning, Hon. Jim, U.S. Senator from Kentucky....................     2
Cantwell, Hon. Maria, U.S. Senator from Washington...............     5
Craig, Hon. Larry E., U.S. Senator from Idaho....................     8
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     3
Gregoire, Christine, Attorney General, State of Washington.......    17
Maggiore, Peter, Secretary, New Mexico Environment Department....    23
Patrinos, Dr. Aristides, Associate Director for Biological and 
  Environmental Research, Office of Science, Department of Energy    13
Roberson, Jessie Hill, Assistant Secretary for Environmental 
  Management, Department of Energy...............................     9
Trever, Kathleen E., Manager, Idaho INEEL Oversight Program......    25

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    51

                              Appendix II

Additional material submitted for the record.....................    57


                  DOE ENVIRONMENTAL MANAGEMENT PROGRAM

                              ----------                              


                        THURSDAY, JULY 11, 2002

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:01 a.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

           OPENING STATEMENT OF HON. JEFF BINGAMAN, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. The hearing will come to order.
    The Department of Energy, of course, has a responsibility 
for a very large complex of research, development, testing, and 
production facilities that over the years have become 
contaminated and have generated enormous amounts of radioactive 
and hazardous wastes. The Department of Energy cleanup sites 
are located in more than half of the 50 States. The estimates 
for the cleanup of the Department of Energy complex have ranged 
to as high as a couple of hundred billion dollars and as long 
as 70 years. Secretary Abraham and the administration are to be 
commended for their commitment to accelerating this cleanup 
effort and completing it at far less cost to the taxpayer.
    However, there are concerns that have been raised about the 
administration's proposed approach to accelerating the cleanup, 
and I for one have been concerned that the $800 million 
accelerated cleanup fund proposed by the administration could 
be viewed as an incentive to encourage State regulators to 
relax site cleanup standards.
    In addition, I'm uncomfortable with the idea of 
appropriating large sums to the Department of Energy in the 
absence of a firm plan for expending those funds. That is why I 
worked in the defense authorization bill with many of my 
colleagues to support requiring the Department of Energy to 
publish criteria that it plans to use in making its funding 
decisions.
    The Department of Energy has also proposed to sharply 
reduce funding for the EM science and technology program and to 
transfer responsibility for more fundamental environmental 
research to the Department of Energy Office of Science. Clearly 
we need to continue to develop new technologies to improve our 
ability to clean up sites in the DOE complex and across the 
country. I am anxious to hear about the Department's plans for 
the EM science and technology program. That is the 
Environmental Management Science and Technology Program. I hope 
the Department shares its views about the importance of 
providing new tools for the cleanup of environmental 
contamination.
    We have some excellent witnesses and our first, of course, 
is our colleague, Senator Bunning, who is going to testify from 
the Kentucky perspective, as I understand it. Before I call on 
him, let me see if any of my colleagues wish to make opening 
statements. Senator Domenici?
    Senator Domenici. I'd like to follow him.
    The Chairman. All right. Senator Craig.
    Senator Craig. Depending on the Senator's time, I will be 
happy to follow him too.
    Senator Bunning. Thank you.
    The Chairman. Senator Bunning, you are up to bat.

          STATEMENT OF HON. JIM BUNNING, U.S. SENATOR 
                         FROM KENTUCKY

    Senator Bunning. Thank you, Mr. Chairman. I am very pleased 
to have this opportunity to say a few words about the DOE's 
proposed accelerated cleanup initiative.
    As some of my colleagues on the committee know, we've been 
dealing with contamination at the uranium gas diffusion plant 
in Paducah, Kentucky for some time now. During the 106th 
Congress, I was privileged enough to sit on the Energy 
Committee and we conducted field hearings in Paducah that 
brought to light the actual extent of the contamination in the 
work place and problems at the plant. Among other things, we 
discovered that after more than 5 decades of operation at the 
Paducah plant, there is now severe contamination from improper 
disposal of hazardous and radioactive material at the site. 
Furthermore, this contamination has been released into streams 
and drainage ditches and some even has made it to the Ohio 
River. Most importantly, workers at the plant have also been 
exposed to radioactive materials.
    I remain hopeful that we can accelerate the cleanup at the 
plant as quickly as possible and do all we can to assist 
workers and citizens in Paducah.
    Like many of you, I am skeptical about DOE's promise to 
accelerate the cleanup of its sites. It seems to me I have 
heard that song before. Despite this skepticism, however, I 
realize that we all must work together in good faith toward 
cleanup at Paducah and other sites around the country. There's 
the old saying that President Reagan used to quote: ``trust but 
verify.'' I am willing to trust DOE to work with them, but I 
want to see verifiable results very, very soon.
    On the surface, the DOE plan proposes to clean up Paducah 
on a much faster schedule than we have right now. Currently, 
the plant is proposed to be cleaned up by the year 2024. With 
the DOE's newly proposed plan, the majority could be cleaned up 
by 2010.
    It also proposes to increase funding by as much as $100 
million for the whole project and cut out a lot of red tape and 
paperwork.
    I appreciate this administration's new approach and 
commitment of accelerating the cleanup of Paducah and other 
contaminated sites. More funds, cooperation with the States, 
and a less regulatory approach all sound promising. This all 
makes me hopeful. I am not ready to fully believe it yet, but I 
think it is a sign we are moving in the right direction.
    It is now up to the Commonwealth of Kentucky to negotiate 
an agreement with DOE to finally place the Paducah plant on the 
accelerated cleanup plan. So far our State officials have been 
moving very slowly on this negotiation. In fact, compared to 
all other site agreements DOE is negotiating around the 
country, Paducah is moving the slowest. We are dead last. And 
that means it has to change and change now. Folks in Paducah 
and workers at the Paducah plant deserve better. Hopefully DOE 
and Kentucky officials can reach an agreement by OMB's August 1 
deadline, but that is only 3 weeks away and the clock is 
ticking.
    For my part, I am going to continue to do all I can to help 
and to keep prodding DOE and Kentucky to move forward. It is 
just too important not to do it.
    I want to thank you, Mr. Chairman, for allowing me to 
testify, and I will answer any questions that you might have.
    The Chairman. Well, thank you very much for that excellent 
testimony. I do not have questions of you at this point. I 
think some may arise as we hear from other witnesses. But let 
me see if any of my colleagues have questions.
    Senator Domenici. I just thank the Senator and I have none.
    The Chairman. Senator Craig, did you have any questions of 
Senator Bunning?
    Senator Craig. No. I think the Senator's reaction is very 
similar to mine: ``trust but verify.'' I think we have been 
there; we have heard that. We want to make sure this happens. 
The budgets are big. If we can accelerate it and reduce them, 
it is a worthy goal.
    Senator Bunning. Thank you very much.
    The Chairman. Well, thank you for your testimony today.
    Let me now see if Senator Domenici or Senator Craig wish to 
make an opening statement before I call the witnesses.

       STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Domenici. Thank you, Mr. Chairman. I have a 
statement that is a lot longer than I would like to give. So, I 
will ask you to put it in the record.
    The Chairman. We will include it in the record.
    Senator Domenici. Mr. Chairman, Senators, and witnesses, 
just so we start off knowing that each and every year how much 
we're going to spend on this cleanup, whether the cleanup is 
progressing or not comes alive in the President's budget and in 
the appropriations to see if there is money to do what is 
planned.
    I would like to open by saying I called upstairs to see how 
much we have spent on cleanup for the last 5 years, so no one 
will think that the cleanup is not getting a lot of money. We 
spent $30 billion. $30 billion on the cleanup in the last 5 
years. The early years of that were just a little bit over $4 
billion, but it went up almost perpendicular for a while and 
then plateaued out. So, it came to an average of $6 billion a 
year.
    What happens is everybody that prepares a budget for the 
executive branch on this cleanup, when they are new and come to 
this job new, is kind of astounded by the amount of money that 
goes in and the little progress that occurs. I am not saying 
that the money is not spent. It is spent, but it is spent on 
processes that get you nowhere in many instances. The problem 
is the ones that get you nowhere the fastest and cost the most 
are the ones where we already have agreements that we are going 
to do these things and even if, in fact, they do not accomplish 
a great deal.
    So, about every 3 or 4 years, we get a suggestion from the 
executive branch that there is going to be a new and better 
approach, and there is going to be some daylight at the end of 
the tunnel on some of them, and some of them are going to be on 
an accelerated program and the like.
    Each time that we get a new person to head it up, we 
interview them and we sing their praises. They have all been 
very good people. Some of them have gone on to do some very 
exciting things, in fact, in Government.
    Some of us know Jessie Roberson. She is here in the front 
row. She has testified before some of us. I know her personally 
from her previous job, and I think you do too, Mr. Chairman. 
She came here full of ambition and desire and commitment. And 
the problem is when she takes the money that is available and 
says, well, what are all the jobs we have got to do, you do not 
have enough time to change the processes and procedures until 
you have to stop spending money. So, you are caught there. You 
need new projects. You need new programs. You need to 
accelerate in a different way.
    But we are right here. Our subcommittee is ready with the 
money to appropriate the various programs. Senators are talking 
about not cutting programs in their State. Most of them do not 
cut the paychecks. There is an enormous paycheck for many parts 
of the country.
    In fact, in one of the major ones, we have replaced--and 
what we have on site is a couple of cleanup contractors. And 
there are more people employed now than when the site was alive 
because, somehow or another, with all the work we have done on 
trying to know how to clean up in a way that is quick and that 
will get the job done, it seems like very few of them are 
working in the places that are really terrific and tough.
    Colorado has got the big star, Mr. Chairman. It looks like 
they are able to tell us that is going to get finished on time. 
That is Rocky Flats. I do not think any of the other ones have 
completion dates that you can say you are really going to 
accomplish, but we can ask you that when you get up here.
    So, I am more than willing here and in Appropriations to 
assume some new process if we can get it done. It is not going 
to be easy because of what I just said. But I will say this 
particular director is doing an outstanding job, and I think if 
we are going to get a new project and program in place, she 
will be able to do it.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Domenici follows:]
       Prepared Statement of Hon. Pete V. Domenici, U.S. Senator 
                            From New Mexico
    Mr. Chairman, thank you for holding this hearing on the Department 
of Energy's accelerated environmental cleanup programs. There can be no 
question that the Department's efforts to clean up the contamination 
left from the legacy of the nuclear weapons program are of high 
priority and that faster progress is important for the nation.
    When the Department first proposed the accelerated cleanup program, 
I expressed great concern that inadequate funds were being provided. 
The Department's initial request was for $800 million in this fund, and 
that came off the top of existing environmental budgets.While I've 
heard rumors that the Department recognizes that this funding is 
inadequate, and plans to request a budget increase for next year, I 
still haven't seen such a request.
    In the case of New Mexico, I was especially concerned to see 
significant cuts in the original budget at both Los Alamos and Sandia 
in their environmental programs. I spoke out then to note that these 
cuts were unacceptable.
    I appreciate that the Department and the State have now agreed on 
an accelerated cleanup plan for New Mexico. Under that plan, the 
environmental programs are increased by $76 million across the state, 
with an additional $54 million at Los Alamos, $8 million at Sandia, and 
$14 million to WIPP.
    The additional support at WIPP is especially important, given the 
central and vital role that it plays in the Department's cleanup 
programs across the nation. In New Mexico, I want to see the wastes at 
Los Alamos moving to WIPP as fast as possible--but there are many other 
sites across the nation that also are depending on quick transfers to 
WIPP to accomplish their own cleanup.
    I want to return in my questions to the special role of WIPP and 
the great challenge that this accelerated cleanup presents to WIPP. The 
Department needs to remember that while accelerated cleanup is a 
tremendous benefit at many DOE sites, it can be viewed as a negative in 
Carlsbad, the home of WIPP.
    The Carlsbad community, perhaps the most supportive community of 
any surrounding a DOE site, has provided superb backing for the WIPP 
site. But that backing was conditioned on a long term role for WIPP. 
Accelerated cleanup means that WIPP's mission ends sooner and 
jeopardizes support for WIPP. This fact must be recognized by the 
Department and special attention must be paid to providing Carlsbad and 
the surrounding area with additional missions providing longer term 
stability.
    Again, Mr. Chairman, thank you for holding this hearing. And 
special thanks to Jessie Roberson for her leadership of the difficult 
EM program at the Department. I'll be looking forward to your testimony 
today.

    The Chairman. Thank you.
    Let me see if Senator Cantwell has any opening statement 
she wanted to make and then call on Senator Craig.

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and thank you 
for holding this hearing this morning. I look forward to the 
testimony from both of the panels. While we do have a Judiciary 
markup going on at the same time, I am definitely going to try 
to be here to hear as much of the testimony from both of those 
panels as I can.
    I think this hearing is really the results of Senator Craig 
and I sending a letter to the chairman asking for the review of 
this accelerated cleanup plan so that we can make sure that we 
are going in the right direction. At the time that we asked for 
that request, obviously our concerns were--Mr. Chairman, if I 
could, I do have quite a lengthy statement. I think what I will 
do is submit that for the record.
    But at the time that this process started, we in Washington 
State with the Hanford Nuclear Reservation, the most 
contaminated nuclear site in the country, had been dealing with 
the same kind of things that were just articulated: I guess you 
would say, stops and starts and misdirection. I counted, when I 
finally went to the last vitrification plant ground breaking 
last summer, I think that was the third ground breaking that we 
have had at Hanford. So, we have had many attempts through the 
last years to get this process right and we have spent billions 
of dollars doing it.
    The challenge for us is that the team on the ground at 
Hanford seems to be making progress in getting things going in 
the right direction. And this year, we were given a budget 
proposal that really many believe could be a way to get multi-
year funding, but yet cut some of the costs by doing more 
cleanup in a faster process. This left us with some questions 
about exactly what the budget was going to be and how the 
process for negotiating on that budget cleanup goals would 
proceed. Clearly we did not want the State of Washington to be 
held hostage to budget negotiations that would compromise 
cleanup standards. You know, we did not want a process in which 
DOE would say, ``you will get so much money based on how the 
negotiation process plays out.''
    So, we still remain concerned about that. So, I look 
forward to hearing from both Assistant Secretary Roberson and 
the Attorney General from our State, Christine Gregoire, about 
exactly how these negotiations are going and what kind of 
commitments can be made as it relates to the budget.
    I would like to enter into the record, Mr. Chairman, if I 
could, a handout--and I will give this to my colleagues here on 
the committee as well--of the Hanford site. It basically shows 
the site in our State and the actual amount of extended 
groundwater contaminants, and shows how that is actually 
growing. In fact, the iodine plume has grown significantly. 
Obviously, our main concern is the Columbia River and the fact 
that contaminants entering that river and the extension of that 
plume need to be addressed immediately. So, I am sure that 
those testifying from our State will address this is further 
detail.
    But Mr. Chairman, I do appreciate your holding this 
hearing. As I said, in order to save time and get to Ms. 
Roberson, I will put my longer statement in the record.
    The Chairman. Well, thank you very much. All of this will 
be included in the record.
    [The prepared statement of Senator Cantwell follows:]
Prepared Statement of Hon. Maria Cantwell, U.S. Senator From Washington
    Thank you, Mr. Chairman, for holding this important hearing on the 
Department of Energy's environmental management program, as well as 
proposed changes to the EM science and technology program.
    I think this hearing has its roots in a request I made last 
February, along with my colleague from Idaho, Sen. Craig, on the heels 
of this Committee's hearing on the Department of Energy's proposed 
budget for Fiscal Year 2003. As you know, included in that budget was 
our first look at DOE's year-long, top-to-bottom review of its 
Environmental Management Program, as well as its proposal for 
accelerating nuclear waste clean-up at sites across the country.
    At that time, we stated that we support the effort to clean up our 
nation's nuclear waste sites in a more timely and cost-effective 
manner. But at the same time, it was not at all clear to us how the 
broad recommendations and reconfiguration of priorities contained in 
the top-to-bottom review will impact projects at specific sites.
    We were concerned about how DOE's proposal for reform will impact 
existing regulatory agreements with the states, as well as the 
accompanying Fiscal Year 2003 budget's lack of specificity on the 
criteria, process and timeline by which funds from the proposed $800 
million reform account would be allocated.
    Since February, DOE has been working with the State of Washington 
and EPA to see where we can agree on plans to accelerate the cleanup 
the Hanford Nuclear Reservation--our nation's most contaminated nuclear 
site. Hanford, as you know, houses--among the many artifacts of our 
World War II and Cold War activities--53 million gallons of high-level 
waste, stored in 177 deteriorating underground tanks next to the 
Columbia River. Over the past 50 years, it is estimated that some 440 
billion gallons of contaminated liquids were disposed of, directly into 
the ground--that's like creating a lake of toxic waste 120 feet deep 
and as big around as the island of Manhattan, at the Hanford 
Reservation. We've got over 80 percent of DOE's spent nuclear fuel. 
We've got DOE's largest volume--or 58 percent--of the Department's 
high-level waste.
    And we've got the largest amount--75,800 cubic meters--of buried 
transuranic wastes of any site within the complex.
    So, Mr. Chairman, it's clear that the residents of my state of 
Washington have made a great contribution and shouldered far more than 
their fair share of this nation's nuclear burden. There are few issues 
as important to the environmental health and safety of the people of 
Washington, and the Pacific Northwest as a whole, than a safe, 
effective and timely cleanup of Hanford. And it's been a frustrating 
process.
    Since we started the job, DOE first explored the option of turning 
our tank waste into ceramic form. That plan began in 1958 and was 
subsequently scrapped.
    We tried again in the late 1980's. DOE planned to turn the tank 
waste into grout. That plan, too, was abandoned.
    Then in 1998, DOE decided to try to privatize the construction of a 
vitrification plant. When cost overruns were projected to be too high, 
DOE fired the contractor in 2000.
    So last fall, I attended what will be--depending on how you count 
it--the third or fourth groundbreaking of a plant to treat our tank 
waste, which has in the interim been leaking toward the Columbia River.
    This history of frustration is precisely why the residents of my 
state are skeptical when the Department of Energy proposes yet another 
new way to clean up Hanford's mess. When the Department's latest 
initiative was unveiled, many felt it would undermine the progress we 
recently had begun to make, under the leadership of a very strong team 
in the field. Our site managers, it seemed, had begun to reevaluate and 
make exactly the kind of progress that the DOE's acceleration plan 
seemed to envision. That's why many of us felt the decision to cut 
Hanford's budget for Fiscal Year 2003 was inexplicable.
    Well, despite these misgivings--some of which still linger--it 
seems that the relationship recently forged between our site managers 
and regulators, as well as their collective foresight, positioned 
Hanford well for negotiations with DOE over its proposal to accelerate 
cleanup. I know that my state, DOE and EPA have been actively meeting 
to come to agreements where possible. Many of us are encouraged by 
recent reports suggesting an agreement might be reached that protects 
the interests of my state a faster, more efficient cleanup that in no 
way jeopardizes the quality of the environmental cleanup.
    In addition, I know that many in Washington are heartened by the 
news this week that the Office of River Protection and the state have 
reached agreement on permitting and DOE has given the authorization to 
proceed with construction of the vitrification plant. We are scheduled 
to begin pouring concrete on July 24--months ahead of the deadline. 
Given the history I've already noted, this is a tremendously important 
step in the Hanford cleanup process.
    These are indeed signs of progress. But at the same time, I hope to 
touch on some of the uncertainties that linger in the minds of many of 
my constituents. For example, when the State of Washington signed its 
letter of intent with the Department of Energy, there was the promise 
of multiple years worth of stable funding for cleanup. We have yet to 
see details or the numbers associated with that commitment, for this 
year, fiscal year 2004 or subsequent years. DOE has broken with 
tradition and failed to release its projected budget requests, which 
leaves many wondering whether the Department is writing checks it can 
actually cash.
    Similarly, we are all anxious to get some of these underground 
tanks closed. And yet ``tank closure'' means different things to 
different people. It's not yet clear whether it means the same thing to 
the Department of Energy and the people of Washington state.
    The more transparent we can make DOE's long term intentions 
regarding Hanford cleanup, the more confidence the citizens of 
Washington can instill in this accelerated cleanup process.
    The point I want to emphasize today is simple: stakeholder 
involvement in decisions being made now and in the future is absolutely 
crucial in building public support and confidence in our cleanup 
outcomes at Hanford.
    Assistant Secretary Roberson, I'm very glad to have you here today. 
I know you have been working extremely hard on these issues, and I look 
forward to your report on our progress at Hanford. I also want to 
welcome Washington state Attorney General Christine Gregoire, who will 
share with us later her experiences with Hanford cleanup, which extend 
for more than a decade now. I also want to recognize Dr. Patrinos, who 
I had the pleasure of meeting earlier this spring, for the dedication 
of the Pacific Northwest National Lab's new, world class NMR (nuclear 
magnetic resonance) spectrometer--a tool that will put the TriCities at 
the center of the coming revolution in systems biology.
    Mr. Chairman, thank you for holding this important hearing today. I 
look forward to hearing our witnesses' testimony.

    The Chairman. Senator Craig.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Thank you, Mr. Chairman.
    I appreciate Senator Cantwell's comments. We joined forces 
in a letter to you and I know that you were concerned and have 
been responsive with this hearing. It is appropriate that we do 
it for all the reasons that have been said by Senator Bunning, 
yourself, certainly Senator Domenici, and Senator Cantwell. We 
have been around the track too many times not to have some 
level of skepticism or concern for obvious reasons. The cleanup 
that needs to be done and the money that is being spent, 
whether it is to verify or whether it is has been there, done 
that, is a concern that all of us have. Yet, it is still a very 
legitimate problem in most of our States where we have this 
legacy.
    You are going to hear from Kathleen Trever today, who is 
with us here, who manages the INEEL oversight program for 
Governor Kempthorne. Kathleen has a history similar to many who 
have worked on this issue. She, with her position in the State 
Attorney General's Office under the Batt administration, worked 
with the 1995 settlement agreement with DOE in the State of 
Idaho, a specific agreement that time-lined cleanup, one of the 
few that exists so specific and so detailed. And we have used 
that I think in the appropriate way to cause DOE and the State 
of Idaho to work cooperatively together on the cleanup program.
    So, what we will hear today from DOE and from the State 
regulators I hope is a view as to where we stand and how these 
efforts to accelerate go on.
    I appreciate the first and the continued expressions of 
this new Secretary of Energy when he looked at this program as 
we all look at it. He said why so long and why so much money. 
Well, I think Senator Domenici has said it. It has become a 
very large payroll. And that does not mean folks drag their 
feet, but it is a complicated process, and there is always 
another day and we will just move on to that next day. I think 
this Secretary says, no, let us get it done. And by 
accelerating, we in fact collapse the costs significantly in 
the out-years, and that should be what we are about.
    So, this kind of oversight, Mr. Chairman, is appropriate. 
We ought to have a clear understanding of this in cooperation 
with this Department and with this Secretary. So, I am looking 
forward to the testimony of all the parties involved. Thank 
you.
    The Chairman. Well, thank you very much.
    We have five distinguished witnesses here, and let me just 
ask them all to please come forward and we will just hear from 
each of them and then have some questions. We have the 
Honorable Jessie Hill Roberson who is the Assistant Secretary 
for Environmental Management at the Department of Energy; Dr. 
Ari Patrinos, who is the Associate Director for Biological and 
Environmental Research at the Office of Science in the 
Department of Energy. And then we have Attorney General 
Christine Gregoire, who is the attorney general of the State of 
Washington; Ms. Kathleen Trever, who is the State of Idaho's 
oversight program director for the INEEL in Idaho; and the 
Honorable Peter Maggiore, who is the secretary for the New 
Mexico Environment Department. So, we are very glad that they 
are all here.
    Ms. Roberson, why don't you go ahead and start. We will 
include all of your statements in the record as if read, but if 
each of you could give us about 5 minutes or 6 minutes 
explaining the main points you think we need to be aware of, 
that would be very appreciated. Thank you.

  STATEMENT OF JESSIE HILL ROBERSON, ASSISTANT SECRETARY FOR 
         ENVIRONMENTAL MANAGEMENT, DEPARTMENT OF ENERGY

    Ms. Roberson. Good morning, Chairman Bingaman, Senator 
Cantwell, Senator Domenici, and Senator Craig. I appreciate 
this opportunity to discuss progress in implementing cleanup 
reform in the Department's environmental management program.
    I am pleased to report to you today that we are making 
significant progress in changing our focus from risk management 
to risk reduction and to instilling within this program the 
kind of urgency necessary to achieve cleanup of the nuclear 
legacy of the Cold War. The comprehensive ``top-to-bottom'' 
review of this program conducted last year concluded that the 
program is in need of repair. More than 10 years have passed. 
We have spent tens of billions of dollars but have failed to 
demonstrate commensurate progress towards cleanup. We are 
determined to make changes and we are moving forward 
aggressively to do so.
    Our focus is on improving performance of the program and on 
identifying and implementing more risk-oriented and efficient 
cleanup objectives that serve the communities around the sites 
and serve the taxpayers.
    Our first emphasis is on bringing site cleanup plans up-to-
date. Significant opportunities for innovative approaches 
exist. We have been pursuing a deliberative, multi-step process 
at each of our sites to identify actions to accelerate risk 
reduction, working with regulators and other stakeholders.
    I am pleased to report that we have made considerable 
progress and reached mutual agreements on many goals, many 
objectives, and on the means of the new risk-based cleanup 
strategies. To date we have signed five letters of intent to 
pursue accelerated cleanup strategies at the Hanford site in 
Washington, the Oak Ridge Reservation in Tennessee, the Nevada 
Test Site, the Idaho National Engineering and Environmental 
Laboratory, and the Sandia and Los Alamos National Laboratories 
in New Mexico.
    Our draft performance management plans, which lay out the 
details of these strategies, are currently undergoing public 
review and comment. And we are very close to announcing that 
letters of intent have been finalized for other sites.
    Based on these letters and the performance plans being 
developed that detail the specific activities of these 
strategies, I am extremely pleased to report that on Monday of 
this week, July 8, the Secretary and the Director of the Office 
of Management and Budget agreed that the administration would 
very soon transmit to the Congress a fiscal year 2003 budget 
amendment supporting the environmental management cleanup 
reform initiatives for additional funds in an amount of up to 
$300 million. This amendment is necessary to support cleanup 
reforms at numerous cleanup sites as evidenced by signed 
letters of intent between the Department, the EPA, and the 
State regulators.
    Now that we have moved to update our cleanup plans, we must 
tackle the business management systems that prohibit the EM 
program from operating in a true performance-based means. We 
have begun a dedicated effort to implement changes in key 
areas, identified in the top-to-bottom review, that are 
critical to the success of the program. We will focus these 
activities into specific projects, each with a complex-wide 
perspective.
    Another key component of our plans to accelerate cleanup is 
to use innovative technology deployments that will cut costs 
and save time. In order for our science and technology program 
to have maximum impact, we believe it needed to be streamlined 
and highly focused on a limited number of critical, potentially 
high payback activities versus a large number of activities 
that offer only marginal improvements. With this in mind, we 
are restructuring our science and technology program to ensure 
it is focused on meeting EM's cleanup and closure needs and 
supports critical, high payback activities that yield real, 
measurable improvements.
    The transfer of the long-term basic research that has been 
conducted by the Environmental Management Science Program to 
the Office of Science is part of this restructuring. This will 
result in more efficient research management and better 
leveraging of other basic science tools within the Office of 
Science. EM will continue to work closely with Science as we 
have in the past to ensure that research supports EM's cleanup 
efforts and technical needs.
    In conclusion, let me say that we have before us an 
opportunity to refocus, reshape, and transform this program. 
However, I believe the progress we have made so far this year 
and the agreements that we have reached at sites across the 
country on better ways to attack cleanup problems demonstrate a 
shared recognition that we can and must do better. I look 
forward to continuing to work with the Congress and others to 
achieve these goals.
    Thank you.
    [The prepared statement of Ms. Roberson follows:]
   Prepared Statement of Jessie H. Roberson, Assistant Secretary for 
             Environmental Management, Department of Energy
    Mr. Chairman and Members of the Subcommittee, I appreciate this 
opportunity to discuss the Department of Energy's Environmental 
Management (EM) program, our progress to date in implementing the 
cleanup reform initiative, and the changes we have made to refocus our 
science and technology efforts on our cleanup and closure mission.
    I particularly appreciate the opportunity to update you on the 
progress we are making in reforming the EM program to re-focus efforts 
on our cleanup and closure mission and on accelerating risk reduction 
at our sites. The comprehensive, ``Top-to-Bottom'' review of the EM 
program conducted last year concluded that this program is badly in 
need of repair. For more than ten years, we have spent tens of billions 
of dollars but have failed to achieve commensurate progress towards 
cleanup and risk reduction. We are determined to make changes. We are 
aggressively proceeding to make good on our promises to deliver more 
cleanup and risk reduction for the taxpayers' dollar.
    Our focus is on improving the performance of the EM program and on 
identifying and implementing more risk-oriented and efficient cleanup 
approaches that serve the communities around the sites and the 
taxpayer. It is not our intent to avoid compliance with any of our 
regulatory agreements. These agreements are living documents, with 
processes to enable improvement and revisions to achieve mutual goals. 
While adopting new cleanup approaches and realigning priorities may 
require modification of some milestones, our efforts to work with 
regulators and to review the cleanup agreements must be viewed in the 
context of our overall efforts to reform and accelerate cleanup.
    In my testimony today, I would like to update you on the current 
status of the cleanup reform initiative. I will then discuss the EM 
science and technology program.
                progress in implementing cleanup reform
    Since the Top-to-Bottom review was completed, we have been working 
aggressively to evaluate and implement the recommendations. Initially, 
our emphasis has been on bringing site cleanup plans up to date. 
Significant opportunities for innovative approaches exist. We have been 
pursuing a deliberative, multi-step process at each of our sites to 
identify actions to accelerate risk reduction, working with regulators 
and other stakeholders.
    The first step in the process is reaching high-level, strategic 
agreement with the state and U.S. Environmental Protection Agency (EPA) 
regulators on how the site cleanup can be accelerated. This agreement 
is documented in a Letter of Intent signed by DOE and the regulatory 
agencies that outlines the broad goals, objectives, and strategic 
direction for accelerated cleanup work at the site. We are also 
preparing a Performance Management Plan for each site that provides a 
detailed delineation of how the site will accelerate risk reduction and 
cleanup. From this Plan, we will then develop a baseline crosswalk from 
the current baseline to an integrated resource-loaded project baseline 
that EM will use to manage cleanup at the site.
    Throughout the process, we have worked closely with state and 
federal regulators to ensure that compliance obligations are consistent 
with the accelerated cleanup plan. When appropriate and on a case-by-
case basis, we are working with regulators to align our regulatory 
obligations with the cleanup approaches.
Progress Toward Site Accelerated Cleanup Plans
    We have made progress in reaching mutual agreement on the goals, 
objectives and means of the new risk based cleanup strategy. To date we 
have signed five Letters of Intent to pursue accelerated cleanup 
strategies at the following sites:

  <bullet> Hanford Site in Washington, signed on March 5, 2002
  <bullet> Oak Ridge Reservation in Tennessee, signed on May 15, 2002
  <bullet> Nevada Test Site, signed on May 23, 2002
  <bullet> Idaho National Engineering and Environmental Laboratory, 
        signed on May 30, 2002
  <bullet> Sandia and Los Alamos National Laboratories in New Mexico, 
        signed on May 30, 2002

    We continue to work on finalizing Letters of Intent at a number of 
other sites.
    Draft Performance Management Plans for Hanford, INEEL, Oak Ridge 
Reservation, and the Savannah River Site have already been made 
available for public comment. Our goal is to have Letters of Intent and 
Performance Management Plans, plus commitments from the regulators to 
take appropriate actions for implementation, completed at most of our 
sites by August 2002.
Taking on Cross-Complex and Internal Challenges
    Now that we have begun to update our cleanup plans, we must tackle 
the business management systems that prohibit the EM program from 
operating as a true performance-based organization. Updating the 
cleanup plans is an important goal. However, the ability to actually 
carry out the commitments in the updated plans depends on objectively 
and credibly adjusting the organization to reflect continuous 
improvement.
    EM has begun a dedicated effort to implement changes in key areas 
identified in the Top-to-Bottom review that are critical to the success 
of the program. The implementation of needed changes will be addressed 
via a number of special project teams. Some examples of the projects 
include:

  <bullet> Implementing performance-based contracting;
  <bullet> Addressing obstacles and reducing risks from spent nuclear 
        fuel, high level waste, and nuclear materials, faster;
  <bullet> Focusing program resources on cleanup by eliminating 
        activities that do not contribute to getting on with a risk-
        based cleanup; and
  <bullet> Structuring an integrated, accelerated cleanup program for 
        small sites and projects.

    We have offered Federal staff from the field and headquarters the 
opportunity to develop proposals and apply to be project managers for 
these projects. We have received more than 100 proposals. A senior 
level EM manager will serve as an advisor to the project team. Projects 
will be managed in accordance with the project management principles 
outlined in DOE Orders. This approach is an important part of our human 
capital management initiative. Successful execution of these projects 
will eliminate many of the barriers that have thwarted previous EM 
attempts to accelerate cleanup and reduce life-cycle costs.
Working With Regulators to Meet Our Environmental Obligations
    The cleanup at DOE's sites is subject to multiple federal and state 
environmental laws, implemented and enforced by multiple agencies. Like 
other Federal agencies, the Department must comply with requirements in 
these laws in the same manner, and is generally subject to the same 
sanctions, as a private party. In accordance with environmental laws, 
the Department has entered into legal agreements and orders with State 
and/or EPA authorities at most sites to carry out its cleanup 
activities or to resolve compliance issues.
    Many of the agreements were negotiated ten or more years ago, when 
the EM program was in its early years. While reflecting the best 
understanding of the contamination problems and technical solutions at 
the time, it was recognized even then that the agreements and 
milestones would need to be periodically revisited and revised over 
time. The agreements therefore contain processes that allow the 
Department and the regulators that are parties to the agreements to do 
just that. We all recognize that adopting new cleanup approaches and 
realigning priorities to ensure we are addressing the highest risks 
first may require modification of some milestones contained in the 
agreements.
    The regulatory agencies that implement and enforce the laws 
governing most of our cleanup activities are key to our efforts to 
reform the EM program. Without their agreement, we are hard pressed to 
make the changes in cleanup approaches that we believe will result in 
more risk reduction and accelerated progress. Without their willingness 
to adjust milestones when necessary to support more risk-oriented 
cleanup priorities or a more cost-effective approach, we may be unable 
to proceed no matter how compelling the alternate path.
    The good news is that we have found most of our state regulators 
and EPA regions to be as eager as we are to achieve faster cleanup. Our 
efforts to work with the regulators at each of our sites over the past 
months to identify more effective cleanup approaches have resulted in 
strategic agreements at a number of our sites. We continue to make 
progress in developing the more detailed plans that articulate the 
activities and schedules for an accelerated cleanup approach.
    The Department understands its obligation to comply with 
environmental laws and compliance agreements. We also believe it is 
critical that those obligations are compatible with reducing risk, as 
quickly and effectively as possible, and with completing the cleanup 
task assigned to us. We believe reform of DOE's environmental cleanup 
program can be achieved while meeting our environmental obligations.
           refocusing em's science and technology on cleanup
    A component of our plan to accelerate cleanup is the use of time-, 
risk- and cost-saving innovative technology. In order for our science 
and technology (S&T) program to have maximum impact, we believe it 
needs to be streamlined and highly focused on a limited number of 
critical, potentially high payback activities versus a large number of 
activities that offer only marginal improvement. With this in mind, we 
are restructuring our S&T program to ensure it is focused on meeting 
EM's cleanup and closure needs and supports critical, high-payback 
activities that yield real, measurable improvements. To this end, S&T 
activities are being realigned in FY 2003 to focus on two main 
strategic areas: 1) providing support to closure sites; and 2) 
providing alternative approaches to high-risk/high-cost baselines.
    In FY 2003, the EM S&T program plans to provide funds to three 
types of projects: those that will address specific problems that could 
delay closure at sites such as Rocky Flats, Fernald and Mound; core/
crosscutting technologies; and alternative technology projects which 
are being selected based on greatest cost and risk impacts throughout 
the complex. We will also provide direct ``troubleshooting'' technical 
assistance as needed throughout the year by making available expert 
teams from the Department's National Laboratories, universities, and 
industry.
    In addition, to ensure site needs are being met, EM will rely on 
site managers to identify their own technology needs and to solicit and 
award contracts directly for technological solutions. To avoid 
duplication among sites, Headquarters will coordinate technology 
development solicitations and integrate site technology efforts. We 
believe this approach, which focuses on solving specific problems at 
the sites and not just developing technologies, makes effective use of 
investments in innovative solutions.
                   meeting em's basic research needs
    Cleanup of the DOE complex is one of the most technically 
challenging environmental tasks the nation has faced, and there still 
are environmental problems that remain intractable. To address these, 
we continue to need longer-term, basic research that can result in 
breakthrough technologies. To build a stronger scientific basis for the 
DOE environmental management effort, an Environmental Management 
Science Program (EMSP) was established in FY 1996 and has been co-
managed with the DOE Office of Science (SC) to take advantage of SC's 
existing basic research infrastructure. Through these years of close 
coordination, SC has gained an enhanced understanding of EM's basic 
research needs and considers them in its own investments in 
environmental research activities.
    Beginning in FY 2003, EMSP will be integrated with SC's ongoing 
bioremediation research program into a more comprehensive program that 
focuses on the science underpinning the development of long-term 
environmental cleanup strategies. A new Environmental Remediation 
Sciences Division will be formed within SC's Office of Biological and 
Environmental Research. This will result in more efficient research 
management and better leveraging of other basic science tools within 
SC, including its user facilities. EM will continue to work closely 
with SC to ensure the research supports EM's cleanup effort and 
technical needs.
    We are confident the EMSP program's current momentum will continue 
as it transitions to reside in the Office of Science. The two DOE 
programs will continue to work closely to ensure the results are 
incorporated into EM cleanup operations expeditiously.
                               conclusion
    We have before us an opportunity to refocus, reshape and transform 
this program. I believe the progress we have made so far and the 
agreements we have reached at sites across the country on better ways 
to attack cleanup problems, demonstrate a shared frustration with too 
little progress to date, and a shared commitment to do better. I look 
forward to continuing working with the Congress and others to achieve 
our goals.

    The Chairman. Thank you very much.
    Dr. Patrinos, why don't you go right ahead.

  STATEMENT OF DR. ARISTIDES PATRINOS, ASSOCIATE DIRECTOR FOR 
   BIOLOGICAL AND ENVIRONMENTAL RESEARCH, OFFICE OF SCIENCE, 
                      DEPARTMENT OF ENERGY

    Dr. Patrinos. Thank you, Mr. Chairman, for the opportunity 
to address you and the members of the committee and to discuss 
what the Office of Science is doing related to environmental 
cleanup research.
    For more than 50 years, our office and its predecessor 
organizations have funded basic research that is the foundation 
for many of the cleanup tasks. For example, the Office of Basic 
Energy Sciences supports the chemical sciences and the material 
sciences that are integral to many of the cleanup activities. 
The heavy element chemistry program, for example, studies the 
actinide elements such as uranium and plutonium that are very 
central to the cleanup activities.
    Basic research in materials has led to the appropriate 
choices for containers that are used for long-term storage. 
Also research in hydrogeology, geophysics, and geochemistry, 
helps us predict how plumes move in the subsurface and suggests 
ways to contain those plumes.
    Within the Office of Biological and Environmental Research 
that I have the privilege of directing, we have several efforts 
that serve the cleanup mission as well. We pioneered the field 
of radioecology, in some way taking advantage of the isotopes 
that were released through bomb testing and accidental release, 
sort of a serendipitous science, which has led to an 
understanding of how nutrients cycle through the environment. 
Much of what we do in ecological research these days is focused 
on the issue of climate change. However, some of the tools that 
have been developed through this program can help also 
understand environmental disruptions as they are associated 
with cleanup operations.
    The revolutionary advances in molecular biology, as 
represented by the human genome project--and I would like to 
nod to the father of the human genome project, Senator 
Domenici--and the microbial genome program have also fueled 
promising new ways to attack the cleanup problems. In 1995, for 
example, we launched the natural and accelerated bioremediation 
research program to exploit naturally occurring microbial 
communities for stabilization and containment of many of the 
wastes that would be a lot more expensive by conventional 
means.
    The rather recent discovery of huge microbial diversity in 
the subsurface suggests promising new ways for cleanup. 
Naturally occurring microbes, for example, like Geobacter, can 
precipitate uranium and other heavy metals from solution. We 
have, in fact, a field research center at the Oak Ridge 
National Laboratory in Tennessee where we are testing some of 
these ideas with some very encouraging preliminary results.
    Microbial genome sequencing is a powerful new tool that has 
also been recruited for exploring bioremediation of wastes. We 
have led the way through the program in BER at our Joint Genome 
Institute in Walnut Creek, California, and at the Institute for 
Genomic Research at Maryland. Two examples are Deinococcus 
radiodurans and Shewenella oneidensis, which are two microbes 
discovered over the last 10 years and are candidates with a 
huge potential for cleanup. The first one can survive in 
extremely highly toxic radioactive environments, ticking away 
doing its cleanup mission, while the other can detoxify very 
dangerous organic compounds.
    Recently we have launched a new program, Genomes to Life, 
which takes this basic research one step further. Starting from 
genomic sequence, we explore the multi-protein complexes and 
the regulatory networks that fuel many of these microbial 
cells. We characterize the computational systems that are 
required and also explore the microbial communities and their 
diversities at the various DOE sites as a prelude to 
implementing some of that research. Our sister office in 
Advanced Scientific Computing Research within the Office of 
Science is a partner with us in the Genomes to Life effort. The 
Genomes to Life program also serves DOE missions in clean 
energy and carbon sequestration to combat climate change.
    Central to many of these activities are the scientific user 
facilities that we have in the Office of Science. For example, 
the light sources and the neutron sources, and I also would 
like to make a specific mention to the Environmental Molecular 
Sciences Laboratory at the Pacific Northwest National 
Laboratory with its 50-plus instruments that have been 
increasingly used for many of the cutting edge problems in 
biology and environmental research.
    As you have heard from my colleague in the Office of 
Environmental Management, we have partnered with our colleagues 
in Environmental Management for many years on the Environmental 
Management Science Program. We have done the scientific peer 
review. They have done the relevance review. And we have 
learned a lot from each other.
    This fiscal year 2003, the administration is proposing to 
transfer this program and the Savannah River Ecology Laboratory 
program to the Office of Science. They will be integrated with 
our science programs for the optimum leveraging that Secretary 
Roberson spoke of. We are committed to close cooperation with 
our colleagues in EM. They are at the front lines of the 
cleanup task and their experience will inform and educate us 
with respect to setting the basic science agenda.
    In closing, I wish to underscore the importance of the 
Office of Sciences' life sciences program in support of the 
DOE's missions. I have given you one example. There are many 
others. It is one piece of a dynamic picture. Our life sciences 
program also plays a key role in advancing energy options and 
in protecting the safety and health of DOE nuclear workers and 
facilities through the Low Dose Program, another signature 
initiative that Senator Domenici has helped us launch. So, it 
is important that DOE maintain its strength in life sciences 
research in support of the Department's missions.
    I am pleased to testify and available for answers. Thank 
you.
    [The prepared statement of Dr. Patrinos follows:]
 Prepared Statement of Dr. Aristides Patrinos, Associate Director for 
Biological and Environmental Research, Office of Science, Department of 
                                 Energy
    Mr. Chairman and Members of the Energy and Natural Resources 
Committee: I am pleased to appear before this committee and to testify 
on what the Department of Energy's Office of Science is doing related 
to environmental cleanup research.
    For more than fifty years the Office of Science and its predecessor 
organizations have funded basic research that serves as the scientific 
foundation for many of the cleanup tasks that are currently under way 
or are in the planning stage. I would like to present some examples of 
this research and also describe some of our plans for the fiscal year 
2003 and beyond.
    The Basic Energy Sciences program supports the research in chemical 
and material sciences that serves many of the Department of Energy's 
cleanup needs. For example, the Heavy Element Chemistry program 
supplies the knowledge base for the actinide elements, including 
uranium and plutonium that are the focus of cleanup activities. 
Knowledge gained about how these elements behave in the environment 
helps us design the appropriate processes for containing them in 
underground plumes as well as for devising appropriate systems to 
isolate them in waste tanks. The widely used TRUEX process, developed 
at Argonne National Laboratory over 20 years ago, grew out of this 
basic research program and is used to reduce high-level radioactive 
waste to one percent of its original concentration.
    Basic research in materials has led to the appropriate choices for 
containers that are used for the long-term storage of radioactive 
contaminants at the Department's sites. For example, a 20-year 
collaboration between the University of Michigan and the Pacific 
Northwest National Laboratory has led to the discovery that gadolinium 
zirconate, a man-made, radiation resistant, crystalline ceramic made 
from gadolinium, zirconium, and oxygen, can resist radiation for 
thousands of years and can be used for long-term storage containers. In 
addition, fundamental research in hydrogeology, geophysics, and 
geochemistry is providing us with the modeling capability to predict 
the movement of underground plumes and their interactions with the 
subsurface environment.
    Within the Biological and Environmental Research program that I 
have the privilege of directing, we have several efforts that directly 
and indirectly serve the Department's long-term cleanup needs. Our 
program pioneered the field of radioecology by studying the isotopes 
that had been released into the environment, through bomb testing and 
accidental releases, to quantify the cycling and fate of nutrients in 
ecological systems. This research led to an understanding of the 
transport of radioactive materials (and other hazards) released near 
the ground. In addition, this research revealed how clouds scavenge 
radionuclide (and other particles) and then deposit them in rain, 
resulting in the global transport of materials. This research 
revolutionized modern fields of ecology and environmental sciences 
including climate change research and the effects of climate change on 
ecosystems. Ecological research continues in the Office of Science with 
primary focus on the impacts of climate change and other environmental 
disruptions such as those related to the cleanup operations.
    The revolutionary advances in molecular biology, as represented by 
the Human Genome project and the Microbial Genome program, have also 
fueled promising new ways to attack the waste cleanup problem. For 
example, in 1995 the Natural and Accelerated Bioremediation Research 
program began developing innovative new ways to exploit naturally 
occurring microbial communities for stabilization and containment tasks 
that are either impossible or too expensive to achieve using more 
conventional means.
    Bioremediation is one of the most promising applications of 
biotechnology research. The discovery of the huge diversity of 
microorganisms in subsurface environments has created exciting new 
possibilities for cleanup. Naturally occurring microbes, such as 
Geobacter can actually precipitate uranium and some heavy metals out of 
solution and thus show great potential for waste cleanup at the 
Department's contaminated sites. The Office of Science has established 
a field research center at the Oak Ridge National Laboratory where we 
are experimenting with such approaches.
    Microbial genome sequencing is a powerful new tool that has been 
recruited for exploring the potential of bioremediation. We have led 
the way in microbial genome sequencing, for example at our Joint Genome 
Institute in California and The Institute for Genomic Research in 
Maryland. Deinococcus radiodurans and Shewenella oneidensis are two 
examples of microbes with tremendous potential for bioremediation. The 
first can thrive in extremely high levels of radiation while assisting 
in cleanup and the second can detoxify organic compounds and heavy 
metals.
    Our newest initiative, ``Genomes to Life,'' takes our basic 
research one step further. Starting with genomic sequences, we explore 
the multi-protein complexes and regulatory networks within cells that 
drive the microbes' complex functions. We characterize the microbial 
communities at the various sites and build the computational 
infrastructure to process and analyze the vast amounts of data that 
will be acquired. The Advanced Scientific Computing Research program, 
within the Office of Science, is a close partner in the ``Genomes to 
Life'' effort, which will serve the Department's missions in 
environmental remediation, clean energy, and carbon sequestration to 
combat climate change.
    Central to the basic research enterprise, including the research 
that underpins cleanup, is the network of scientific user facilities 
operated by the Office of Science. Noteworthy are the synchrotron light 
sources at the Argonne, Brookhaven, and Berkeley National Laboratories 
and at the Stanford Synchrotron Radiation Laboratory. Also important to 
cleanup efforts are the Environmental Molecular Sciences Laboratory at 
the Pacific Northwest National Laboratory, in Washington State, and 
super-computing facilities at several National Laboratories.
    All the research programs of the Office of Science, as well as the 
operations of our scientific user facilities, are subjected to the 
highest level of rigor in peer review and evaluation. The scientific 
community provides expert advice through our chartered advisory 
committees and through committees of the National Research Council and 
other bodies, enabling us to stay at the cutting edge of the scientific 
enterprise.
    For several years we have partnered with our colleagues in the 
Office of Environmental Management to jointly implement the 
Environmental Management Science Program. The Office of Science has 
taken the lead in conducting the scientific peer review of the 
submitted proposals while our Environmental Management colleagues have 
led the review of the relevance of the proposed work to the needs of 
cleanup operations. As a result of this long-term collaboration, we 
will jointly fund two new projects to test the efficacy of using 
bioremediation to stabilize and contain specific metal and radioactive 
contaminants at the Hanford site in Washington and at one of the 
uranium mine tailing sites in Colorado.
    The Administration is proposing the transfer of the Environmental 
Management Sciences Program and the Savannah River Ecology Laboratory 
from the Office of Environmental Management to the Office of Science in 
Fiscal Year 2003. The consolidation of these programs with ongoing 
basic research activities within the Office of Science will optimize 
their synergism for the benefit of the Department's environmental 
mission.
    The Office of Science is committed to continuing the close 
cooperation with our colleagues in Environmental Management both as we 
consolidate these research programs and during their implementation in 
the years ahead. These efforts are at the front lines of the cleanup 
task and the experience, knowledge, and ``ownership'' of the cleanup 
challenge will inform and educate us in our support of basic research 
for environmental remediation.
    In closing, I wish to underscore the importance of the life 
sciences research programs within the Office of Science in support of 
the Department's missions. I have given you one example of the 
contributions life sciences research is making towards environmental 
cleanup. However, this is only one piece of a dynamic picture. Our life 
sciences research also plays a key role in advancing energy options and 
in protecting the environment and the safety and health of the 
Department's nuclear workers and facilities. These are but a few of the 
many contributions that will come from this research and why it is so 
important for the Department of Energy to maintain its strength in life 
sciences research. Thank you for the opportunity to testify before your 
committee and I would be delighted to answer any questions you may 
have.

    The Chairman. Thank you very much.
    Let us hear from Attorney General Gregoire at this point. 
Go right ahead. Thank you for being here.

  STATEMENT OF CHRISTINE GREGOIRE, ATTORNEY GENERAL, STATE OF 
                           WASHINGTON

    Ms. Gregoire. Good morning. Thank you, Mr. Chairman and 
members of the committee, for the opportunity to be here and 
testify today.
    The Hanford Nuclear Reservation in the State of Washington 
holds more high nuclear waste than all U.S. sites combined. 
This highly contaminated reservation is perched on the Columbia 
River which is the lifeblood of the entire Pacific Northwest. 
53 million gallons of highly radioactive and hazardous waste 
are stored in 177 aging and some leaking underground storage 
tanks which are within 7 miles of our river.
    For the Pacific Northwest, the stakes are as clear as they 
are enormous. Allow me to give you a quick background.
    In 1989, we signed the Tri-Party Agreement between the U.S. 
Department of Energy, the Environmental Protection Agency, and 
the State of Washington. It marked a decisive change at Hanford 
after decades of inaction. It was a mutual decision to clean up 
rather than to fence off and to spend money on fixing the 
problem rather than in litigation.
    A second breakthrough came in 1999 when the State finally 
sued the Department of Energy to get the tank waste retrieval 
work back on schedule. A consent decree was entered in court, 
but most importantly a fundamental change took place and that 
was to deal with the worst first concept, those tanks which 
posed the greatest threat to human health and safety and the 
environment. I am pleased to report that as of 8 a.m. yesterday 
morning, construction on the vitrification plant began.
    I have been working on the Hanford cleanup site since the 
mid-1980's. In the 13 years since the Tri-Party Agreement, we 
have had four Presidents and six DOE Secretaries. Each 
administration has spent precious time and money rethinking the 
cleanup and each ultimately has come to the same conclusion. 
One, there is no quick fix. Two, it is far too easy to become 
distracted by paper-shuffling and ignore the real work and the 
real risk. Three, the Hanford cleanup is painfully expensive, 
and the longer we wait, the greater the cost. Four, 
vitrification, essentially turning liquid waste into glass 
logs, is the answer. Five, communication with the public is 
essential to us making real progress. And finally but most 
importantly, we must get on with the cleanup to protect public 
health, safety, and the environment.
    It is also important to understand that years of secretive 
defense operations, mistrust, and poor management of the 
cleanup have created a volatile atmosphere among Hanford 
stakeholder groups. It is against that history that DOE has 
unveiled its suggestions for a new and accelerated cleanup 
strategy. Obviously, nobody is against--and in fact, everybody 
is in support of--accelerated cleanup. But of course, the devil 
is in the details, especially considering the complicated 
history of Hanford.
    The plan, published on May 1, lacks essential details that 
we need to determine DOE's intent and to build public 
confidence. To further raise suspicions, DOE has provided the 
State with insufficient budget information concerning the 
cleanup program for the next fiscal year. As you can imagine, 
these developments have contributed to skepticism about what we 
are going to do at Hanford. So, rumors back home abound.
    Hanford-watchers want to know just what DOE means by 
accelerated cleanup. Does it mean changing the definition of 
high level waste to low level waste for the purpose of allowing 
waste to be left in the tanks? Does it mean tons of radioactive 
transuranic waste will be buried at Hanford instead of being 
cleaned up and stored at WIPP, as Congress intended? Does it 
mean expanding the boundaries of the area where groundwater 
contamination is acceptable?
    There are a lot of people with questions who want to see 
the details and replace the rumor with facts. So, this hearing 
is very healthy and we thank you for it. It fills a much-needed 
void in communication.
    The bottom line is this. The accelerated cleanup cannot 
depend on a shortened yardstick of success. Washington State 
cannot allow the Federal Government to declare the Hanford 
cleanup a success by simply moving the goal line.
    The State is working with DOE and its contractors on new 
accelerated cleanup strategies with the hope that it will 
present another much-needed breakthrough for this State and the 
Nation, but our definition of accelerated cleanup looks like 
this:
    Cleaning up the worst first, ensuring the health and safety 
of the public and the environment by removing the most 
dangerous waste and addressing the greatest risk first.
    Second, using the best science and technology available to 
remove, treat, store, and dispose of the waste.
    Three, practicing sound management.
    Four, ensuring cost effective use of the public's money.
    Five, living by the law as set forth by Congress and the 
Tri-Party Agreement by removing, treating, storing, and 
disposing of the waste.
    And last, communicating openly with the public, as well as 
State regulators, about cleanup plans, budget, and progress.
    My client, the Department of Ecology, is at the table 
negotiating now with DOE to make sure that these standards I 
have just described are met. They are not there yet, but they 
are making good progress and I want to thank them for their 
hard work.
    Again, I want to thank you for holding the hearing.
    I have submitted for the record a more detailed written 
testimony that further outlines our progress and our concerns. 
We ask Congress to continue to monitor cleanup, to ensure that 
our definition of success is actually achieved. To do that, we 
must also have sufficient, predictable, sustainable funding to 
complete the cleanup.
    Washington has served its Nation proudly, helping win World 
War II and ultimately the Cold War, sacrificing much at the 
Hanford site in the process. We all must work together again to 
cleanup the site and win the war on cleanup.
    Thank you very much, Madam Chair and members of the 
committee.
    [The prepared statement of Ms. Gregoire follows:]
      Prepared Statement of Christine Gregoire, Attorney General, 
                          State of Washington
    Good morning, Chairman Bingaman, Senator Murkowski and Members of 
the Committee. Thank you for this opportunity to testify today.
    The Hanford Nuclear Reservation is one of several sites comprising 
the Nation's former nuclear weapons production complex. The fuel 
fabrication, irradiation, and chemical separations processes undertaken 
at Hanford played a key role in producing the weapons that facilitated 
the end of World War II, and provided the foundation of U.S. foreign 
policy throughout the Cold War. Hanford thus contributed mightily 
toward establishing a legacy of freedom around the world.
    Today, I am here to talk to you about a related, but different 
legacy. This legacy is characterized by the fact that the Department of 
Energy's (DOE's) Hanford site holds more high-level radioactive waste 
than all other U.S. sites combined. Hanford has 53 million gallons of 
highly radioactive and hazardous waste in 177 aging, leaking 
underground storage tanks just 7 miles from the Columbia River. An 
estimated 67 of these tanks have already leaked more than one million 
gallons of this toxic brew into the ground, and it is seeping into the 
groundwater that flows to the River. Hanford has nearly two thousand 
cesium/strontium capsules containing over 5 million curies of 
radiation, stored in underwater pools. And it has 2,100 tons of 
corroding spent nuclear fuel and sludge about 80% of the Department of 
Energy's inventory in leak-prone holding pools just 400 yards from the 
Columbia.
    Of course, this is only part of the picture. But it should give you 
an idea of the scope of the problem. To understand the seriousness of 
the risk, however, you must understand that the Columbia River is 
nothing less than the lifeblood of Eastern Washington and the entire 
Pacific Northwest. Farmers use the River to irrigate crops that feed 
millions of Americans and people throughout the world. Shippers use it 
to transport agricultural products to national and international 
markets. The salmon and other fish that live and spawn in the river are 
a vital part of our heritage and economy. Families and businesses 
depend on the River to power homes and factories in Washington, Canada 
and neighboring states. Finally, the Hanford site is just yards from 
the last free-flowing section of the Columbia, a magnificent stretch of 
river of such incomparable beauty that it was recently designated as a 
national monument.
    For the Pacific Northwest the stakes are as clear as they are 
enormous. We must act decisively to clean up Hanford, and to rid our 
children, and their children, of this legacy of environmental abuse. To 
be sure, completing this job has taken, and will for the foreseeable 
future continue to take, a monumental effort. Today, I want to share 
with you some of our victories in this effort, as well as the 
tremendous obstacles still before us.
    The Department of Energy has made important progress at Hanford. 
After decades of inaction, the Tri-Party Agreement (TPA) between the 
Department of Energy, the Environmental Protection Agency, and the 
State of Washington marked a decisive moment at Hanford. It was a 
mutual decision to work together rather than fight. To clean up rather 
than fence off. And to spend money on fixing the problem rather than 
fighting in court. We made the right choices when we signed the TPA 
back in 1989.
    Since then, the Department of Energy has moved 3.3 million tons of 
contaminated soil and debris inland from the shoreline of the Columbia. 
It has begun dismantling the nine reactors that line the River and is 
placing them into interim safe storage. And although it is slipping 
behind schedule, it has begun to move spent fuel from the large holding 
pools by the River's edge--the so-called k basins--to a safer, dry-
storage site away from the River.
    But the real watershed came in 1999 when the state finally sued DOE 
to get the tank waste retrieval work on schedule. That suit followed 
repeated delays by DOE in its program to transfer pumpable liquids from 
the single-shell tanks to Hanford's newer double-shell tanks, a process 
called ``interim stabilization.'' The lawsuit resulted in an agreed 
timetable for cleanup and, so far, DOE is complying. What was most 
significant about the Interim Stabilization Consent Decree is that it 
required that DOE change its focus to deal with the worst first--those 
projects that would have the most immediate and important impact on 
protecting human health and the environment.
    Despite this progress, tremendous obstacles impede our efforts to 
ensure a speedy and effective cleanup. I have been working on the 
Hanford project since 1988, so I have some perspective on those 
obstacles. In that time, I have seen administrations come and 
administrations go. And every time a new administration comes in, it 
wants to rethink the plan, the strategy and the funding for Hanford. 
That uncertainty is a major part of the problem. Moreover, it is a 
truly bipartisan phenomenon--it happens with Democratic and Republican 
administrations alike.
    In 13 years since signing the Tri-Party Agreement, we've had four 
presidents and six Secretaries of Energy. Each administration has spent 
time and money rethinking the Hanford cleanup. Each ultimately came to 
the same conclusions:
    1. There is no quick fix. It may have taken a miraculously short 
period of time to put Hanford on the map, but the contamination that 
remains from decades of nuclear weapons production will last thousands 
of years. It is far more difficult to put the toothpaste back in the 
tube than it is to let it out.
    2. It is far too easy to become distracted by paper shuffling and 
ignore the real work, and the real risk, at hand.
    3. The Hanford cleanup is painfully expensive--and the longer we 
wait, the more those costs mount. We have been told, time after time, 
that we need only to ``wait for the science'' to provide a cheaper, 
better method to deal with this waste. While we've been waiting for the 
science, over a million gallons of highly radioactive waste has leaked 
into the ground, substantially increasing the risk to human health and 
the environment, and making the cleanup work even more expensive and 
hazardous.
    4. Vitrification of Hanford's high-level radioactive waste into 
stable glass logs is the best answer to the tank waste problem. DOE has 
studied this issue over and over again.
    5. Communication with the public is essential to making real 
progress.
    6. Finally, and most importantly, we must get on with the cleanup 
to protect public health and the environment.
    So it is against this history of changing strategies that we now 
find ourselves considering suggestions for a ``new,'' ``accelerated'' 
cleanup strategy. This strategy was manifested in the Department of 
Energy's draft ``Performance Management Plan for the Accelerated 
Cleanup of the Hanford Site,'' published by DOE on May 1st of this 
year. Unfortunately, the plan lacked the details that we, and the 
public, need to discern DOE's intent on a number of critical issues.
    For example, the plan did not articulate key assumptions on three 
key issues: 1. The extent to which DOE intends to retrieve and treat 
high-level radioactive waste from single-shell tanks; 2. how it plans 
to effectuate accelerated ``closure'' of the tanks; and 3. the extent 
to which it intends to retrieve, treat, and ship to the Waste Isolation 
Pilot Plant (``WIPP'') transuranic wastes buried at the site. The plan 
also did not reveal a disposal pathway for 1,936 cesium and strontium 
capsules--containing approximately 37% of the site's total 
radioactivity--currently stored in water-cooled pool cells at Hanford's 
Waste Encapsulation and Storage Facility (WESF).
    The plan also appears to assume an expansive point of compliance 
for groundwater contamination. This is the point at which cleanup 
levels for groundwater contamination must be attained and suggests that 
DOE intends to leave substantially more contamination at the site than 
currently contemplated by the Tri-Party Agreement and more than 
justified under applicable regulations.
    Finally, the Plan lacks any specific actions to involve 
stakeholders and the public in revising and implementing its 
strategies.
    Not only does the plan raise significant questions about how much 
cleanup DOE really intends to do at Hanford, DOE also is providing 
untimely and insufficient budget information concerning the cleanup 
program. The Tri-Party Agreement requires that DOE inform the State of 
Washington and the Environmental Protection Agency of DOE's and the 
President's budget request, and its assessment of the impact the 
requested budget would have on DOE's ability to meet cleanup deadlines 
in the Tri-Party Agreement. If appropriated funds fall short of funds 
needed to comply with the Tri-Party Agreement, the parties are to 
attempt to agree on appropriate adjustments in the work scope. Without 
the budget information, that dialogue simply cannot occur.
    As you can imagine, these developments have contributed to great 
skepticism among Hanford watchers, and rumors abound. This is what the 
public, and frankly, I fear the Department of Energy means by 
accelerated cleanup:

          1. Reclassifying high-level radioactive waste to low-level 
        waste, so that it may be disposed of in-place in leaky, 
        underground storage tanks already decades beyond their design 
        life;
          2. Leaving buried at Hanford in unlined trenches tons of 
        radioactive transuranic waste that Congress intended be cleaned 
        up and stored at WIPP; and
          3. Moving points of compliance for groundwater contamination 
        to make cleanup easier.

    Let me be clear. Washington State will not sit back and allow the 
Federal government to declare the Hanford cleanup a success by simply 
moving the goal line. That is not ``accelerated cleanup,'' by our 
standards. We have far too much at stake to allow our legacy to be 
defined by how much we leave behind.
    What, then, is Washington State's vision of accelerated cleanup? It 
is a cleanup guided by the following principles:

          1. Cleaning up the worst first. We must protect the health 
        and safety of the public and the environment by focusing on the 
        greatest hazards first. For example, we must safely retrieve 
        and stabilize Hanford's tank wastes without delay, and before 
        catastrophe strikes.
          2. Using the best science and technology available.
          3. Living by the law as required by Congress. When Congress 
        enacted the Federal Facility Compliance Act in 1992, it made 
        clear its intent that the Federal government be required to 
        comply with all Federal, state, and local requirements to the 
        same extent as any private person is required to do so. DOE 
        cleanup at Hanford must comply with applicable requirements of 
        the Comprehensive Environmental Response, Compensation and 
        Liability Act (CERCLA), the Resources Conservation and Recovery 
        Act (RCRA), Washington's Hazardous Waste Management Act (HWMA), 
        and the Tri-Party Agreement, which implements the EPA's and the 
        State's authority under CERCLA, RCRA, and HWMA. For example, we 
        expect DOE to remove as much waste as technically possible from 
        Hanford's underground storage tanks.
          4. Practicing sound management to be cost effective. All too 
        often the rising costs of Federal compliance with environmental 
        requirements has been blamed on the states. Washington has been 
        incredibly patient, flexible, and creative in dealing with the 
        Department of Energy during the thirteen years since the Tri-
        Party Agreement was signed. To accelerate cleanup, DOE must 
        improve its own management and operate in a more cost-effective 
        manner. For example, it must emphasize performance-based 
        contracts that provide incentives to meet or beat regulatory 
        requirements and that impose significant penalties on 
        contractors that miss such deadlines.
          DOE must use integrated, life-cycle baselines as a management 
        tool. Use of such baselines help managers identify the resource 
        and financial needs for projects, the interrelationship between 
        different activities, and the consequences that changes to one 
        aspect of the project will have on the remainder of the 
        project.
          DOE must remove unnecessary duplication and bureaucratic 
        process from its own contract management.
          5. Effectively communicating with Congress, regulators, 
        stakeholders and other members of the public, and within DOE 
        itself. There is great distrust of the Department of Energy, 
        and unless DOE overcomes that distrust, it is destined for 
        failure. First and foremost, DOE must include in the 
        development and implementation of any accelerated cleanup plan 
        a process for meaningful stakeholder and public participation. 
        Further, DOE's intentions must be transparent. Decisions cannot 
        be made on the basis of hidden or unstated assumptions. It must 
        be a deliberative and informed process, for all involved. DOE 
        must also improve its communications with Congress, to give the 
        appropriators the assurance they need to provide sufficient, 
        reliable, and stable funding to allow DOE to effectively carry 
        out its cleanup mission. Finally, DOE must put its internal 
        communications in order. It must strengthen communications 
        between DOE Headquarters and operations offices, so that the 
        local DOE officials are confident of their authority and can 
        effectively interact with regulators, stakeholders, and the 
        public.

    These are the principles that define Washington State's 
expectations for accelerated cleanup at Hanford. While certainly there 
were things we liked about the draft the Department of Energy submitted 
to us on May 1, such as its proposal to accelerate vitrification of the 
first 10 percent of the high-level radioactive tank waste, the plan 
comes up short when held up to the light of Washington State's 
expectations for accelerated cleanup.
    I have been around this block many times with DOE, but I will keep 
an open mind that this time will be different. As I testify to you 
today, my client, the Director of the Washington State Department of 
Ecology, and his staff are working hard with the Department of Energy, 
the Environmental Protection Agency, and others to try to transform 
DOE's draft plan into a plan that the State of Washington can accept.
    I am told that progress is being made. For example, the parties are 
exploring ways to enhance the operation of the Hanford Waste Treatment 
Plant (WTP) to enable vitrification of high-level radioactive tank 
waste even faster than currently planned. They are identifying high-
risk single-shell tanks from which waste will be retrieved sooner. They 
are beginning to wrestle with the difficult issues that will need to be 
addressed in developing plans for retrieving wastes and closing the 
tank farms. DOE has agreed to look at all transuranic wastes at 
Hanford--not just those placed there after 1970--and is working with 
the regulators on a process for deciding the best treatment and/or 
disposal approach. They are evaluating alternative disposal approaches 
for the highly radioactive cesium/strontium capsules at Hanford. DOE 
will remove from the plan unfounded assumptions regarding points of 
compliance for groundwater contamination in the Central Plateau of the 
site. The parties are working to integrate groundwater monitoring 
requirements of multiple regulatory schemes to improve efficiency. And 
finally, DOE has recommitted to incorporate cleanup decisions into the 
Tri-Party Agreement, which necessarily requires opportunities for 
public comment and participation.
    The parties are attempting to reach agreement on a revised plan by 
July 15. If agreement is reached, the revised plan will be provided to 
DOE Assistant Secretary Jessie Roberson, for use with OMB and Congress, 
in developing a supplemental FY 2003 budget request.
    They have set for themselves an ambitious schedule to work through 
this process. At this point, I cannot tell you whether or not they will 
reach agreement. My client is optimistic that they can. I am hopeful 
that he is right, but remain skeptical that the Department of Energy 
and the State of Washington have a shared vision of accelerated cleanup 
at Hanford. The vision will define the choices we make and, ultimately, 
the legacy we will leave for future generations.
    Mr. Chairman, the Tri-Cities and the entire Pacific Northwest, made 
sacrifices to help win World War II and the cold war. We are proud of 
our contribution to the Nation and to the cause of freedom throughout 
the world. It is past time that our Nation finish the cleanup job at 
Hanford, and remove this significant threat to public health, the 
environment, and our regional economy.
    Thank you for the opportunity to speak with you today.

    Senator Cantwell [presiding]. Thank you, Attorney General 
Gregoire.
    Now we will turn to Secretary Maggiore for your comments.

STATEMENT OF PETER MAGGIORE, SECRETARY, NEW MEXICO ENVIRONMENT 
                           DEPARTMENT

    Mr. Maggiore. Madam Chair, good morning. First I would like 
to thank Chairman Bingaman and the members of this committee 
for inviting me to attend and to present the State of New 
Mexico's perspective on the proposed accelerated cleanup 
initiative presented by the U.S. Department of Energy, 
specifically how they apply to the facilities in my home State 
of New Mexico.
    As members of this committee know, the Department of Energy 
and its predecessor agencies have had a tremendous presence in 
New Mexico since the time of the Manhattan Project. New Mexico 
hosts a great deal of DOE activity at the Los Alamos National 
Laboratory, at Sandia National Laboratories, and in addition, 
we host the Waste Isolation Pilot Plant near Carlsbad, the 
Nation's only transuranic waste disposal site.
    We have worked closely with every DOE administration since 
the inception of the environmental management program, commonly 
referred to as EM, to help ensure the cleanup of the legacy 
contamination from the nuclear weapons program. Although New 
Mexico does not have the magnitude of environmental 
contamination that is present in some of our sister States, 
including Washington and Colorado, Georgia and Tennessee, there 
is still significant legacy waste cleanup work that needs to be 
accomplished.
    Throughout my tenure as cabinet Secretary for Environment, 
Department of Energy funding for the EM programs at New Mexico 
facilities has not been robust, particularly in comparison to 
DOE facilities in other States. Despite working with the 
Department of Energy in a collaborative common sense approach 
over the past several years, New Mexico DOE facilities have 
experienced declining EM funding. This has resulted in 
significant slippage in schedule for closure of legacy waste 
sites.
    In 1998, shortly after I was appointed cabinet Secretary, 
my predecessor had signed onto an environmental stewardship 
vision with the Department of Energy and its contractors, as 
well as the U.S. EPA. The environmental stewardship vision 
stated--and I quote--``We will complete all environmental 
restoration and stabilization efforts and ensure long-term 
maintenance and monitoring programs are in place at all New 
Mexico DOE facilities by 2006, Sandia National Laboratories by 
2001, and Los Alamos National Laboratory by 2006.''
    In early 2002, just 4 years after signing this vision, the 
DOE's projected completion rates have been extended out to 2009 
for Sandia and 2040 for Los Alamos. These are 8-year and 34-
year extensions, respectively. These projected time frames are 
unacceptable to the State of New Mexico and speak to its 
significant problems with the DOE's EM program. These funding 
inadequacies have been worsened by the President's recent 
budget.
    The continual delays in completing New Mexico's scheduled 
cleanups, coupled with the obvious inadequate funding to meet 
the commitments at these facilities, has forced the Environment 
Department in New Mexico this year to change our regulatory 
stance. We recently issued a draft corrective action order for 
Los Alamos under New Mexico's authority under RCRA and plan to 
do the same for Sandia later this year. It is apparent to New 
Mexico that virtually all of the environmental cleanup at major 
DOE sites are driven to some extent by compliance agreements, 
be they either tri-party agreements, as referred to in Idaho, 
consent decrees, compliance orders, or settlement agreements. 
Simply put, sites with these types of agreements seem more 
likely to receive funding from the Department of Energy 
headquarters. I do not feel it is appropriate for New Mexico's 
environment to suffer because our agency had attempted to 
cooperate with DOE.
    As this as a background, I would like to discuss our 
perception of the accelerated cleanup program. First of all, 
the administration's proposed EM fundings were far too low. 
Obviously, members of this committee and Congress in general 
agrees with that statement and increased the level of funding 
for fiscal year 2002 and I thank you for doing that. The 
President's budget this year has roughly the same level of 
funding as last year, but contains additional monies for the 
cleanup reform account, as you have heard explained earlier.
    Be assured that I do not blindly equate Department of 
Energy funding and program success. Accelerated cleanup 
challenges us to part from this money equals success paradigm. 
The accelerated cleanup program brings with it the unique 
benefit of incorporating collaboration, streamlining, and 
technological innovation, and I stand in full support of these 
added benefits.
    We have provided input to the accelerated program proposal 
starting early this spring, and I sat in on those meetings 
personally. To date, we have found the process of developing 
these proposals helpful, and I believe it is an excellent 
planning exercise, one that interestingly enough allowed us to 
reach quick agreement between the Department of Energy, EPA, 
and the State on what the highest priorities were. In general, 
we agree with the goals and proposed time lines of these 
proposals, and we are understanding that these proposals 
continue to be reviewed by DOE headquarters.
    As mentioned earlier, as part of this process, we were 
requested to sign a letter of intent with the Department of 
Energy. Interestingly, contractors for the DOE were not 
required to be signatories in spite of the fact that they 
helped develop the proposals and are expected to carry out the 
work. The letters of intent describe the collective commitments 
needed to achieve cleanup at the legacy waste sites.
    Some activist groups in New Mexico have criticized the 
letter of intent as setting the stage for the Department of 
Energy to do less cleanup. I do not agree with this analysis. I 
view the letters of intent as a gesture to work collaboratively 
towards cleaning up legacy waste as quickly as possible.
    The bottom line. The State of New Mexico will benefit by 
receiving an additional $62 million above the President's 
budget. Unlike some other States where funding will not change 
significantly over last year's levels, New Mexico should see a 
substantial increase in EM money. At Sandia and Los Alamos, the 
combined increase is $28.5 million, or 26 percent. I am 
confident that this increase in funding will make large 
differences at those facilities.
    We do have concerns, however, as to how the Department of 
Energy views closure of its legacy waste facilities. 
Specifically, it is important that accelerated cleanup not be 
interpreted to mean less cleanup. I believe I speak for many 
States that have DOE facilities when I say that New Mexico 
expects DOE to perform the maximum amount of cleanup 
practicable before declaring a site closed. Removal of waste 
and contamination from DOE sites should remain a priority.
    Finally, I want to emphasize the need for a robust, long-
term stewardship plan for DOE facilities. Such a plan currently 
does not exist, yet should be a critical element for closure of 
all DOE sites. New Mexico has concerns about DOE's commitment 
to the development and maintenance of such a plan, one that 
needs to be agreed upon by both State regulators and the 
Department of Energy. In instances where waste and 
contamination will remain at DOE sites, the use of federally 
financed, State-managed trust funds or other suitable fiscal 
instruments should be a critical element or tool available to 
the States. Such a tool would help to ensure that States have 
the financial resources available now and in the future to 
protect public health and the environment from the residual 
hazards.
    This concludes my testimony. Thank you again for the 
opportunity to be here this morning.
    Senator Cantwell. Thank you, Secretary Maggiore.
    Director Trever.

           STATEMENT OF KATHLEEN E. TREVER, MANAGER, 
                 IDAHO INEEL OVERSIGHT PROGRAM

    Ms. Trever. Madam Chairman and members of the committee, I 
too appreciate the opportunity to share with you today the 
State of Idaho's perspective on DOE's initiative for 
accelerating cleanup.
    The INEEL played a key part in winning the Cold War and the 
commercial development of nuclear power. While we encourage the 
continued use of the lab's valuable assets, we also expect the 
Federal Government to address the site's environmental 
liabilities. My written statement provides more detail about 
those liabilities, including considerable quantities of spent 
nuclear fuel and plutonium-contaminated waste brought from 
other sites to Idaho for temporary storage. We must address 
these liabilities to protect Idaho's major aquifer, a key water 
supply for drinking and agricultural uses, as well as other 
parts of Idaho's environment.
    INEEL has made considerable progress in addressing these 
liabilities, but some tough problems remain. The State and its 
regulatory agencies have worked with DOE to support innovative 
approaches and common sense cleanup requirements, changing our 
agreements and restructuring activities as appropriate to 
achieve tangible results.
    In May, Idaho entered into a letter of intent with DOE and 
EPA to support further acceleration of cleanup, and we are 
involved in DOE's efforts to develop a performance plan for 
restructuring INEEL cleanup work. The collective desire of 
Congress, DOE, and States housing DOE facilities for sooner, 
safer, and more efficient cleanup is not new. It is one we 
strongly support.
    For today's hearing, I would like to focus on the 
liabilities that remain. As we renew our commitment to more 
efficient cleanup through our participation in DOE's 
accelerated cleanup initiative, there are certain steps 
essential to our success.
    While it is healthy to set aggressive goals for completing 
cleanup, we must not fool ourselves with creative accounting 
practices or simplistic assumptions. Earlier DOE cleanup plans 
reduced environmental liabilities and risks on paper, but 
eroded confidence in cleanup investments when some of the rosy 
forecasts did not prove out. We are working with DOE to provide 
a realistic assessment of the nature and extent of the problems 
to be solved.
    In our press to reduce schedules and cost, we must still 
present investors in cleanup a clear understanding of 
programmatic risks, whether they involve unproven technology, 
regulatory assumptions, repository availability, decisions at 
other sites, or public challenge. We must also clearly define 
parameters for success that can remain consistent from one 
administration to the next. Keeping initiatives on track 
requires both dependable, sufficient funding, and management 
support.
    The state of EM's science and technology program causes us 
some concern. It is unclear today what criteria DOE is using to 
develop its environmental management priorities for science and 
technology investments. For example, the EM's Office of Science 
and Technology's latest proposed funding for fiscal year 2003 
includes no INEEL projects, although such investments hold 
considerable potential for reducing the schedule and cost of 
two of the sites toughest and most costly cleanup issues, high 
level waste and buried plutonium contaminated waste. The 
estimated baselines for these projects are over 10 years and 
billions of dollars. If DOE does not investigate alternatives 
for these high risk, high cost baselines now, it will be locked 
into existing options to honor its commitments and keep from 
passing these problems on to future generations.
    Some reform proposals involve transferring materials or 
responsibilities to other Federal programs. So, plans should 
recognize where costs are truly saved versus shifted elsewhere. 
DOE began its reform process by negotiating with sites and 
States fairly independently. However, plans for the INEEL, the 
State of Washington, the State of New Mexico, and other sites 
often depend on work in other places for storage, treatment, 
and disposal. For acceleration initiatives to succeed, DOE will 
have to address interdependencies among sites.
    Idaho and other States have offered to serve as catalysts 
for collective discussions with DOE through the National 
Governors Association-DOE Task Force. Idaho is also committed 
to ensure INEEL cleanup is accelerated in a way that is 
compatible with the Department's larger mission objectives. DOE 
has agreed to develop a strategy for smoothly transferring 
laboratory functions from the Office of Environmental 
Management to other program sponsors.
    In closing, Idaho remains committed to meeting our cleanup 
goals for the INEEL as efficiently as possible, while ensuring 
we preserve the laboratory's capabilities for meeting our 
Nation's objectives in security, energy, basic science, and 
environmental science.
    We are all investors in successful cleanup. To succeed, we 
will need more than general pronouncements of schedule and cost 
savings. We will have to evaluate our problems, recognize 
uncertainties, and determine how to get the maximum return on 
investment: accelerated cleanup that saves money and reduces 
risk. Whether it's brass tacks or sleeve-rolling that is 
needed, Idaho is committed to working with DOE and Congress to 
get the job done.
    Thank you, Madam Chairman.
    [The prepared statement of Ms. Trever follows:]
          Prepared Statement of Kathleen E. Trever, Manager, 
                     Idaho INEEL Oversight Program
    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to testify before you today on the Department of Energy's 
accelerated cleanup initiative.
    My name is Kathleen Trever. I manage the state of Idaho's program 
that monitors DOE activities in Idaho, and have been involved in issues 
related to the INEEL for over eight years.
    Today, I'm going to give you a quick overview of the state's 
perspective on the INEEL, clearly describe the challenges the INEEL 
faces, and recommend seven common sense steps that should be taken to 
ensure proposed cleanup makes the best use of tax dollars and sets the 
stage for meaningful decision-making and continued progress in cleaning 
up our Cold War legacy.
            overview of the state's perspective on the ineel
    One of DOE's major facilities, the Idaho National Engineering and 
Environmental Laboratory (INEEL) occupies land in eastern Idaho about 
the size of Rhode Island. Only 3% of the site's 890 square miles are 
used, resulting in a huge buffer zone that made the site an ideal place 
for developing and testing nuclear reactors.
    The INEEL has been essential to the success of this country's 
nuclear navy. Its research made commercial use nuclear power possible.
    Some of the finest scientists in the world are at the INEEL, and 
the laboratory is capable of developing and testing technologies that 
enhance our national security, the quality of our environment, and 
develop ways to generate, use, and conserve energy.
                  environmental challenges ineel faces
    While we encourage the use of the laboratory's valuable assets, we 
also expect the federal government to address the site's environmental 
liabilities.
    The first liability is waste generated during the Cold War and 
stockpiled at the INEEL.
    The second liability is environmental contamination that resulted 
from historic nuclear research and development.
    Waste has come to the INEEL from other sites. The damaged reactor 
core from Three Mile was brought to the INEEL so the nation's 
preeminent scientists in nuclear energy could examine it to determine 
what went wrong and how another such incident could be prevented. It is 
now stored at the INEEL.
    Tens of thousands of barrels of plutonium-contaminated waste 
generated at the Rocky Flats Weapons site in Colorado and other 
facilities were brought to Idaho for ``temporary storage.'' This 
waste--generated at other sites and stored at the INEEL--gives the 
INEEL the largest stockpile of plutonium-contaminated waste in the 
nation, perhaps the world.
    The INEEL houses an 88-acre landfill contaminated with plutonium, 
other radionuclides and chemicals, and there is not yet a clear 
solution for cleaning it up.
    Spent nuclear fuel from navy vessels and other nuclear reactors is 
stored at the INEEL awaiting a permanent repository.
    Also stored at the INEEL is liquid and solid high-level waste, 
which is both hazardous and radioactive. This waste presents 
particularly difficult challenges. It is difficult to treat, store, 
transport, and dispose.
    These Cold War wastes and contamination from site activities now 
sit atop the Eastern Snake River Plain Aquifer. This aquifer provides 
drinking water and supports much of Idaho's agricultural economy, 
including thousands of family farms, dairies, a thriving aquaculture 
industry.
seven common sense steps we must take for successful, efficient cleanup
    We need to work together to solve these problems. They present 
extraordinary challenges--technical, fiscal, social and political. But 
with the expertise we have at our national labs, they can be solved.
    The state of Idaho recommends seven common sense steps for ensuring 
successful, efficient cleanup:

          (1) Realistically assess the nature and extent of the problem 
        to be solved;
          (2) Clearly define parameters for success;
          (3) Adequately fund the cleanup program;
          (4) Develop the science and technology necessary for solving 
        tough problems, some postponed for more than a decade;
          (5) Recognize where cleanup costs are truly saved versus 
        shifted to other programs;
          (6) Coordinate decision-making and planning between states, 
        sites, contractors, and DOE;
          (7) Ensure cleanup activities are performed in a way that 
        protects capabilities for meeting DOE's mission objectives.

    The collective desire of Congress, DOE and states housing DOE 
facilities for sooner, safer, and more efficient cleanup, is not new. 
It's an admirable goal, one we support.
    The State and its regulatory agencies have worked to support 
innovative approaches and common sense cleanup requirements, changing 
our agreements and restructuring activities as appropriate over the 
past decade. Our goal is for on-the-ground cleanup, and we have focused 
on resources on achieving tangible results.
    Now let me provide more details on our recommended steps for 
successful cleanup acceleration.
1. Realistically Assess the Nature and Extent of the Problem To Be 
        Solved
    While it's healthy to set aggressive goals for completing cleanup, 
we must not fool ourselves with creative accounting practices or 
simplistic assumptions. Earlier DOE cleanup plans have reduced 
environmental liabilities and risks on paper, but have not always 
succeeded in achieving on-the-ground results. That's why we need to 
realistically assess the nature and extent of the problem to be solved.
2. Clearly Define Parameters for Success
    We must clearly define parameters for success, and the definition 
of ``success'' should remain consistent from one administration to the 
next.
    DOE must provide clear, current baselines for cleanup projects and 
identify how certain these costs and schedules are. This would allow 
decision-makers and the public to evaluate whether investments in 
technology development, transportation system revisions, or regulatory 
actions are worthwhile, given potential reductions in risk, cost and 
schedule.
    DOE has dismissed baseline plans for some of the tougher waste 
problems as ``too conservative'' or ``too costly.'' At some point, 
however, we must move ahead or face continued expenditures with no 
results.
    Cleanup initiatives should present a logical, step-based clearly 
identifying uncertainties for each step involved in an initiative, 
whether they involve unproven technology, regulatory assumptions, 
repository availability, decisions at other sites or public challenge.
3. Adequately Fund the Cleanup Program
    Keeping initiatives on track requires both sufficient funding and 
management support. In some cases, accelerating cleanup is merely a 
matter of money--reducing the principal of our Cold War debts instead 
of just paying high caretaking costs. Some problems, however, require 
up-front, science and technology investments to eliminate roadblocks to 
efficient cleanup.
4. Develop the Science and Technology Necessary for Solving Tough 
        Problems That Have Been Postponed for More Than a Decade
    DOE must make a commitment to identify and develop the science and 
technology necessary for solving these problems. This would facilitate 
decision-makers' prioritization of investments and determination of 
appropriate funding levels.
    In some cases, science and technology investments are prerequisites 
for successful cleanup. Other science and technology investments could 
produce significant efficiencies and resource savings, both at INEEL 
and elsewhere.
    Idaho wants to avoid some of the difficulties now facing Rocky 
Flats and Fernald. These sites made commitments to Congress for closure 
in 2006, but in 2002, they still have technology needs to solve hard 
problems left until the end.
    It is unclear today how DOE is developing environmental management 
priorities for science and technology. For example, DOE's latest 
proposal for FY2003 EM science and technology investments includes no 
INEEL projects, although such investments hold considerable potential 
for reducing the schedule and cost of two of the site's toughest, and 
most costly, cleanup issues high-level waste and buried plutonium-
contaminated waste.
    The baseline plan for safely treating high-level waste for 
transport out of Idaho involves converting liquid and granular wastes 
to glass. Baseline estimates for high-level waste treatment and buried 
waste retrieval both run in the billions of dollars.
    These are the types of ``high risk, high payoff'' projects 
Secretary Abraham indicated that Environmental Management's Science and 
Technology Program should concentrate on in the rollout of the 
Administration's proposed budget for FY2003, and it is unclear why 
DOE's plans do not include them. If DOE does not investigate 
alternatives now, it will be locked into existing options to honor its 
commitments and keep from passing these problems onto the next 
generation.
    DOE must commit to address the tough problems that have been 
postponed for decades Like Hanford and other sites, we face our 
greatest challenges where DOE has repeatedly postponed facing tough 
problems involving sizable capital investments and unproven 
technologies. With Hanford tank wastes and INEEL buried plutonium-
contaminated waste, DOE has spent nearly a decade investing 
considerable sums in false starts without any on-the-ground progress. 
We must develop a strategy for completing these projects, and get the 
job done.
5. Recognize Where Cleanup Costs Are Truly Saved Versus Shifted to 
        Other Programs
    Accelerated cleanup plans should recognize where costs are truly 
saved, and not just shifted to other programs. Some reform proposals 
involve transferring materials or responsibilities, including long-term 
stewardship of environmental liabilities to other federal programs. To 
make sure these transfers make sense, there needs to be a full 
understanding of what is involved.
6. Coordinate Decision-Making and Planning Between States, Sites, and 
        Contractors
    DOE must coordinate decision-making and planning between states, 
sites, contractors, and DOE. To date, DOE has been negotiating 
individual site plans in a fairly isolated fashion. But many of INEEL's 
proposed initiatives depend on actions at other sites.
    One proposal involves shipment of a larger inventory of remote-
handled waste from INEEL to WIPP in New Mexico, but the repository is 
not yet permitted for this type of waste and depends on regulatory 
actions by the state of New Mexico. The INEEL plan also proposes to 
send usable uranium materials to other sites that may need new storage 
capabilities to manage them. Oak Ridge's plan involves the shipment of 
materials to Idaho. Some of the same Rocky Flats plutonium-contaminated 
waste that does not have a straightforward path to disposal is located 
in both Colorado and INEEL.
    For acceleration initiatives to succeed, they must recognize 
interdependencies among sites, including treatment and storage 
facilities as well as repositories. It is time for DOE to engage sites 
and states collectively. Idaho has offered to do its part by working 
through the National Governors Association's DOE task force.
7. Ensure Cleanup Activities Are Performed in a Way That Protects 
        Capabilities for Meeting DOE's Mission Objectives
    We must also ensure that cleanup is accelerated in way that is 
consistent with the larger objectives of the Department as a whole. As 
I mentioned, the INEEL has considerable resources for meeting DOE's 
goals for meeting our nation's national security, energy, basic science 
and environmental needs. DOE must complete its cleanup at INEEL in a 
way that preserves these capabilities to prevent paying to rebuild them 
later. As we agreed in our letter of intent with DOE and EPA, the INEEL 
must have a strategy for ensuring the smooth transition of laboratory 
functions from the Office of Environmental Management to other program 
sponsors.
    In closing, Idaho remains committed to meeting our cleanup goals 
for the INEEL as efficiently as possible while ensuring we preserve the 
laboratory's capabilities for meeting national objectives.
    We are all investors in successful cleanup. To succeed, we need 
more than general pronouncements of schedule and cost savings; we need 
a clear understanding and agreement on what our problems are and how 
each one should be addressed. This understanding and agreement will 
result in a maximum return on investment: accelerated cleanup that 
saves money and reduces risk.

    Senator Cantwell. Thank you, Director Trever, and thank you 
to all the panelists from the Department of Energy and the 
various States here to help us in understanding what is going 
on with the environmental management program.
    I think I would like to start with you Secretary Roberson, 
if I can. I obviously commend you for your personal efforts in 
the Hanford performance management plan, which I think is due 
August 1.
    Ms. Roberson. Or sooner.
    Senator Cantwell. Or sooner. I know you spent a couple of 
days out in the State a few weeks ago on the progress of that. 
So, I am assuming by your comments you think that you will at 
least meet the August 1 deadline, if not before that.
    Ms. Roberson. Absolutely.
    Senator Cantwell. There obviously are signs of progress 
here. Again, I applaud you for that. But at the same time, I 
think there are some lingering questions that my constituents 
have about this process. One of them has to do with the budget 
and the fact that we do not really know what it is. This is 
supposedly a process that will lead to multi-year funding 
commitments from DOE and a faster cleanup process, and yet we 
do not have commitments on what the actual numbers are going to 
be. I think both article 48 of the Tri-Party Agreement 
specifically talks about how we need to have information on 
DOE's commitments on the budget. And I think as part of the 
LOI, we also talked about the funding requirements being part 
of the negotiation. So, obviously it is hard for our State to 
negotiate if we do not know that the exact dollars are going to 
be there for cleanup.
    So, can you commit today that we will have those numbers 
prior to the completion of that agreement or the August 1 
deadline?
    Ms. Roberson. Thank you, Senator Cantwell. I did have a 
very productive trip out, and I think we are making tremendous 
progress. I do believe that we will do better than the August 1 
date with the performance management plan at Hanford, for both 
Richland and the Office of River Protection, or ORP.
    I had the opportunity, while I was there, to sit down and 
talk with both EPA regulators, as well as State regulators, on 
their concerns about the specificity in the budget for both 
2003 and out-years. Although I understand they have a concern 
that we have not laid out with specificity the proposed funding 
levels even for 2003, it is a part of a process. We are working 
very aggressively to, first, agree on the sequencing of work, 
the specific activities, and to attach the funding requirements 
to that. So, funding levels are a part of the process for 
development of the PMP, and it will be a part of the PMP once 
issued.
    Senator Cantwell. But will we get those numbers prior to 
it? Will the Attorney General have access to those numbers? 
Will I? Will other members of the Senate have access to those 
numbers?
    Ms. Roberson. For fiscal year 2003?
    Senator Cantwell. Yes. Obviously, it is going to be a 
multiyear plan, so we would like to see the other years.
    Ms. Roberson. The last part of the plan is to apply the 
funding needs to the work as defined by the performance 
management plan. So, you will certainly have the opportunity to 
see the budget as it relates to the work that we are 
negotiating right now. Absolutely.
    Senator Cantwell. I think you can understand the dilemma. 
Given last year's budget numbers and this plan, obviously we do 
not want the State of Washington, or any State for that matter, 
to feel like they are held hostage to an agreement based on the 
amount of money that they are going to get. You know, if they 
will comply with a change in plan or philosophy, they will get 
X number of dollars for cleanup. So, we want to make sure in 
this negotiation we have the details of cleanup, and that DOE 
is also being frank about what the numbers are. And obviously, 
there is a concern.
    We obviously do not want to see States pitted against each 
other. Washington may be the first in getting an agreement 
done. What does that leave for the rest of the States who have 
cleanup projects, and how do we make all the numbers add up if 
we do not know what the total amount for the program is?
    Ms. Roberson. Senator Cantwell, I think we have tried to be 
very, very open on this matter, and I understand your concern. 
I think the true credibility for us is to ensure that the 
funding requirements do line up with the work, and that is the 
process that we have laid out and are working with the 
regulators on.
    Senator Cantwell. Well, we will look forward to seeing 
those numbers soon then.
    Obviously, part of this agreement is to pursue the high 
level waste tank closures, to demonstrate that this can 
actually be done. Again, we applaud that there is the intent 
and interest in doing that, to showing actual progress. I think 
given the amount of money we have spent on Hanford cleanup in 
the past, it is good to show specific milestones and progress.
    But again, here is an area where there could be some 
misinterpretation and we do not want to see misinterpretation. 
We want to see consensus.
    On the particular issue of definition of tank waste and the 
tank closures, can you commit to me that DOE will abide by the 
obligations under the Tri-Party Agreement as to the retrieval 
of the high level waste in those tanks? Basically the issue 
is--I think the language is, DOE is obligated to retrieve no 
less than 99 percent and all that is technically feasible. I am 
obviously concerned that there may be some attempt to 
reclassify that waste within those tanks and then basically say 
that DOE does not have to commit to the 99 percent cleanup or 
all that is technically feasible.
    Ms. Roberson. Well, Senator Cantwell, I had the opportunity 
while I was at Hanford a week and a half ago to not only visit 
with the regulators, but to participate in an open session 
discussing the specifics of the proposed performance management 
plan with members of the public from around the site. I have 
also taken the opportunity to personally review and ensure I 
have a clear understanding of the commitments in the Tri-Party 
Agreement related to this issue, as well as review the 1996 EIS 
and subsequent ROD. As I communicated to them when I was 
there--and I communicate to you--our commitment is to fulfill 
that obligation, and we do not believe that we have proposed 
anything that is not in compliance with that obligation.
    Senator Cantwell. So any kind of tank waste treatment 
program would comply with the Tri-Party Agreement.
    Ms. Roberson. As you recited the specific language, that is 
absolutely our commitment.
    Senator Cantwell. I see my time is expired. I do have more 
questions, but we will turn to Senator Domenici.
    Senator Domenici. Thank you very much, Senator.
    Let me start with you, Ms. Roberson. First of all, I want 
to again personally thank you for taking this job.
    Ms. Roberson. Thank you.
    Senator Domenici. It is not easy to get somebody to do this 
job. It is a series of--I do not want to say failures, but 
certainly lack of success has been the bride of this Department 
for at least the last 12-15 years.
    So, do I understand that what you are trying to do is you 
are trying to go to each site and in a sense look at what is 
going on there, and I guess in common, ordinary language, 
strike a deal that will be binding on the U.S. Government, be 
binding on the State or locality, and set forth a plan either 
for total cleanup or for a number of years what will happen in 
each of the succeeding years? Is that what you are trying to 
do?
    Ms. Roberson. Absolutely, Senator Domenici.
    Senator Domenici. Now, are these plans going to be 
different than whatever is operating now in each case?
    Ms. Roberson. Senator Domenici, in many cases there are 
probably three primary changes. One specific change is that we 
are trying to take technologies that we have been either 
researching, piloting, using surrogate waste, and to actually 
deploy those at the sites to determine whether they will be 
able to play a role in actually solving the problem using real 
materials. We have seen opportunities specifically at the 
Hanford site. As a part of their negotiations, they have 
identified specific technologies to be evaluated as 
alternatives for some of the low activity waste in the tank 
farm. Those will be part of the focus of our science and 
technology program at each of the sites. The application of 
some of the technologies that we have been working with 
provides the opportunity for real improvement in our cleanup 
plans.
    The other change is to really update our plans, to update 
the processes, as well as to transfer information that we have 
gained from site to site and apply it in places where it has 
not been applied.
    And the last is to take a common sense approach to 
improving the environment. I really like the way Kathleen 
Trever said it--sooner, safer, and in a more efficient way. So, 
yes, in many cases the activities do change with the goal of 
rendering a strategy that results in environmental protection 
sooner and safer.
    Senator Domenici. Let me just ask a couple more questions 
generally. When you go to work on a site, you indicated to us 
that you are changing the approach because, as you look at the 
site, what you are trying to end up with is work that is moving 
towards eliminating the nuclear waste not just fixing the site 
up to contain it. That is a very big difference from what I 
learned in appropriating the money for this program and here on 
this committee.
    What if it costs a little bit more for the next 3 years to 
do a plan that is beginning to get rid of some of the waste but 
it costs more and another plan will just hold it all in place 
and you get a bargain? What are you going to be doing as a 
matter of policy with reference to those cases?
    Ms. Roberson. You have exactly recited the choice that we 
believe that we all have before us--whether to make a modest 
but higher investment now to address some of the problems that, 
without that investment, will linger longer and where the 
environmental potential is greater. The waste is there. We 
still have to deal with it, and the question is do we take the 
actions now.
    Senator Domenici. We will have to be funding the site. It 
will be permanent employment for as long as the radioactivity 
exists and we will just keep it there.
    Ms. Roberson. Exactly.
    Senator Domenici. Have you had any success in changing 
contracts thus far during your regime that pulled up the way it 
was done and the quality in comparison with saving a little bit 
of money and not doing as much real bona fide cleanup? Do you 
have any of those as examples?
    Ms. Roberson. We do have examples of that. Our focus thus 
far has really been on our cleanup strategies in conjunction 
with our regulators, although we have also begun to undertake 
an evaluation of how to improve our contracts to ensure that 
the controls that we put in place through those contracts 
ensure we continue to stay focused on getting the work done.
    One specific example that I know you will personally be 
interested in: One of the goals of our accelerated cleanup plan 
is to accelerate the movement of Transuranic (TRU) waste to the 
WIPP site, and we have been working with the Nuclear Regulatory 
Commission (NRC) on a proposed approach to doing that. I am 
excited to say that we have achieved that agreement with NRC. 
So, that in and of itself renders 10- to 15-year savings on 
that specific activity and over $200 million compared to the 
way we were planning to do it. And the waste is protected and 
safe, and it renders the site safer sooner.
    Senator Domenici. Let me also say for the record and for 
your benefit, the fact that you find a budget that cannot 
accomplish the goal for the year and that will have House 
members and Senate members through their appropriations 
committee or the like jumping all over you because the budget 
does not have enough money in it to do the job, I hope you know 
that this is not a new attribute that follows a President's 
budget into the hands of somebody who is in charge like you. 
Most Presidents have done that. Then we have to find the money 
because so many good Senators come from these States and they 
will not let us get out of here with an appropriation bill that 
has the President's number in it.
    Now, you all made it worse this year because you openly 
said we are cutting some money, but you also said we are going 
to try to do a better job. But I understand you are now at some 
point here going to openly say you have some additional money 
for this piece of the function. Is that correct?
    Ms. Roberson. Yes.
    Senator Domenici. How much? $300 million?
    Ms. Roberson. Yes, sir. The Department and the Office of 
Management and Budget agreed on Monday.
    Senator Domenici. Have you told us in your statement what 
you plan now to use that for?
    Ms. Roberson. Well, what I told you in my statement is we 
are finalizing some remaining letters of intent.
    Senator Domenici. If it is in the record, that is all we 
need. It is in there?
    Ms. Roberson. Yes.
    Senator Domenici. Is any of that going to the New Mexico 
plan which our environmental protection agency director is here 
saying imminent danger is going to occur if we do not do 
something quick? I am not saying I said that. He said that.
    Ms. Roberson. I have had the opportunity to visit with 
Secretary Maggiore a number of times and we have been working 
collaboratively on the details to accelerate the cleanup of Los 
Alamos, and I believe the additional funding we propose is very 
much aligned with addressing their concerns.
    Senator Domenici. Then I want to close my questioning by 
asking you this question. The New Mexico Environmental 
Department recently issued a finding of ``imminent and 
substantial endangerment to human health and the environment 
from work at Los Alamos.'' The words used were ``imminent and 
substantial endangerment to human health and the environment.''
    Are you aware of any risk at Los Alamos that qualifies 
under the dictionary definition of imminent, which is ``likely 
or due to happen soon''? What is the Department's position with 
reference to that situation? Is there an environmental 
situation that is likely to happen soon which will cause 
imminent harm to human health and environment?
    Ms. Roberson. I have asked one of my colleagues from the 
NNSA organization to be prepared to address that. The 
Department believes that there is no situation that presents an 
imminent danger to human health and the environment. However, 
we also recognize that we have a commitment to address our 
environmental obligations at the site.
    Senator Domenici. Right, and we are going to try to get 
more money for everyone in the Appropriations Committee.
    Thank you, Mr. Chairman.
    Senator Wyden [presiding]. I thank my colleague.
    Senator Craig.
    Senator Craig. Thank you, Mr. Chairman.
    To all of the panelists, we thank you for being with us 
this morning. I think you are all sharing a diverse but 
collective view of a problem that we are struggling with here 
because all of our facilities are different and have different 
needs. Certainly the one at Hanford is one that I have looked 
at and been aware of for a substantial period of time. I 
recognize that ours is more complicated in some ways, less 
risky in others. It is not the magnitude of the problem at 
Hanford, but to the citizens of the State of Idaho it is every 
bit as imminent, as urgent, as concerning as it relates to 
folks in the State of Washington. Being a down-streamer is a 
bit different than being a down-winder I guess, but at the same 
time, the concerns are real.
    Secretary Roberson, you revamped EM's science and 
technology program and propose to look at 13 environmental 
challenges to accelerate cleanup and closure across the EM 
complex. According to the documents I have seen, none of these 
challenges to accelerate cleanup are connected with issues at 
the INEEL.
    My question to you is this. It is in part a result of the 
EM science and technology proposed budget with the $60 million 
cut in it for 2003, which in essence could result in the layoff 
of about 180 scientists. In your view does DOE have all of the 
technology it needs to address the sodium-bearing waste and 
buried waste at the INEEL?
    Ms. Roberson. Senator Craig, thank you for your question. I 
smile only because what you have just stated is actually a real 
demonstration of just how open our process is and that what you 
have had the opportunity to view are proposals in progress but 
not complete.
    Senator Craig. That is right.
    Ms. Roberson. The two areas you cited and Kathleen Trever 
cited are priorities for our science and technology program. We 
have not completed that process. We are trying to integrate it 
with the accelerated cleanup plans, just as we have done at 
Hanford, where the results of that were four specific 
technologies that we have been exploring that we want to pursue 
going forward. I expect that we will see the same opportunities 
and fold those into our science and technology initiatives for 
2003. So, that is a process in progress. It is not completed.
    I agree those are two specific areas where technological 
opportunities exist, and I believe we will have a technology 
initiative. Most specifically, we are very interested in some 
of the technologies we have been discussing at the site in 
relationship to disposition of the sodium-bearing waste. So, 
that is a process in progress, not completed.
    Senator Craig. Thank you.
    Kathleen, would you respond to that from your perspective 
as a State regulator?
    Ms. Trever. Thank you, Senator Craig. As I mentioned in my 
statement, two of the toughest problems at the INEEL involve 
high level waste both in liquid and in powder form, as well as 
buried plutonium-contaminated waste. In both of those cases, 
the technology is uncertain even for the baseline scenario 
which includes a schedule over 10 years for each of those 
respective projects and in the billions of dollars.
    In the case of the high level waste, DOE's tank focus area 
had looked at that and supported use of vitrification, but in 
terms of development of the INEEL performance management plan 
and NEPA documentation, DOE has proposed other options that 
involve unproven technology. So, there is a need to make those 
types of investments to get those particular jobs done as well 
as potentially realize some savings from accelerating the 
process.
    Senator Wyden. If my colleague would yield, it just seems 
we are either having an orchestra or a----
    Senator Craig. Could we stop for just a moment?
    Senator Wyden. Just to have the cell phone turned off so 
that my colleague could ask his questions. That is great.
    Senator Craig. Somebody has a cell phone ringing here. It 
is playing lovely music, but it is mighty distracting.
    Senator Wyden. We have stopped the symphony.
    Senator Craig. Thank you.
    One last question, Mr. Chairman. Kathleen, we are talking 
about acceleration. And I do thank you for being here today 
because Idaho and its citizens have had concern about what all 
this means, how it gets defined ultimately, how it relates to 
what we believe is an important agreement with certainly time 
lines that must be met and all of that type of thing.
    And at the same time, I have worked with the Secretary and 
with Jessie to bring some reality to a problem that I think has 
been well defined here today. Obviously, the Attorney General 
from Washington expresses the same kind of frustration. We 
spend lots of money and what we get done is, in many instances, 
questionable.
    Of course, we saw an episode out in Idaho called Pit 9 that 
was a very real frustration to all of us, and now we are back 
to an amazingly practical perspective as to how we might 
approach it. Instead of building a monster facility, we might 
use something that is available at the equipment lot of most 
backhoe dealers and do so in a rather practical way. And if it 
works, oh, my goodness, hundreds of millions of dollars saved. 
But at least there is flexibility out there in trying to make 
that happen.
    Kathleen, could you address just a bit more your 
perspective, the State's perspective as it relates to these 
concerns and where you are at the moment with DOE in getting 
those concerns alleviated?
    Ms. Trever. Thank you, Senator Craig. In response to your 
question, I want to make it clear that Idaho's cleanup goals 
and priorities remain the same. What we are working with DOE to 
do through the performance management process is exploring 
opportunities where we can restructure activities to accelerate 
cleanup and make cleanup more efficient. There are some 
difficult problems that remain that will require the gamut of 
political, social, technical discussions, but we think with a 
management commitment on both sides, as well as a fiscal 
commitment through Congress, that we can work on achieving 
these goals.
    Senator Craig. So, today you are satisfied with the 
discussions, the negotiations, and hopefully ultimately the 
agreement.
    Ms. Trever. Senator Craig, we are engaged in productive 
discussions. We still need to develop more details to satisfy 
some of our concerns, particularly as I mentioned in terms of 
science and technology investment, as well as developing a 
clear understanding of what types of uncertainties are involved 
in these acceleration proposals so that collectively between 
the State, the Department, and Congress, we can all make a fair 
assessment of the types of investments that we need to make 
accelerated cleanup happen.
    Senator Craig. Thank you. To all of you, thank you much.
    Senator Wyden. I thank my colleague and I want him to know 
that I look forward very much to working with the Senator from 
Idaho on these issues. We have worked in a bipartisan way on 
these and so many other areas and I look forward to working 
with him again in that regard.
    I also want to, before I begin my questions of the 
administration witnesses, welcome a good friend, Christine 
Gregoire, one of the country's best attorney generals, 
consistently on the front lines on public health, environmental 
and safety issues. Attorney General Gregoire, it is good to 
have you here. I have read your statement in detail.
    Let me begin by telling the administration witnesses that I 
have looked at the accelerated cleanup plan, and I will tell 
you it may be accelerated, but it sure does not resemble a 
cleanup plan to me. And I want to be very specific about my 
concerns here.
    First, as you look at Hanford, it is not cleanup to close 
the high level nuclear waste tanks at Hanford and then leave 
waste behind in so many of the tanks. It is not cleanup to 
transport an estimated 70,000 truckloads of radioactive waste, 
some of it mixed with hazardous chemicals from around the 
country through my home State of Oregon for burial at Hanford. 
Much of those wastes would be buried in unlined trenches. Now, 
under State law, you cannot even bury household garbage in 
unlined trenches.
    And it is certainly not accelerated or cleanup for the 
Energy Department to delay shutdown of the FFTF reactor until 
2011. Every year the Department delays FFTF shutdown, it wastes 
an additional $36 million of taxpayer money that could be used 
for cleanup.
    So, I want to support any accelerated action here that is 
going to get real cleanup, but leaving more high level nuclear 
waste in tanks, dumping more radioactive waste at Hanford, and 
delaying the shutdown of FFTF does not sound like a cleanup to 
me.
    So, let me, if I might, begin with some questions for you, 
Secretary Roberson. I do have some questions for you, Ms. 
Gregoire as well, and would certainly invite the other 
witnesses to come in as well.
    Secretary Roberson, the Hanford performance management plan 
and other Department goals, as you all describe them, call for 
an estimated 70,000 truckloads of radioactive waste to be 
shipped across Oregon for burial at Hanford. Much of that waste 
would be buried in unlined soil trenches. My first question to 
you is, how does dumping more waste at Hanford, especially into 
these unlined trenches, constitute cleanup?
    Ms. Roberson. Senator Wyden, first of all, let me say that 
the performance management plan is not intended to imply 
disposition of low level or mixed low level waste in unlined 
trenches. When I was at Hanford a week and a half ago, this was 
a subject of a discussion that I was able to participate in 
with our regulators and with members of the public, including 
representatives from the State of Oregon. The Department has 
emphasized its commitment, and if not addressed in the 
performance management plan, it is one of the things that will 
be specifically addressed, that we are not planning to 
disposition waste in unlined trenches.
    As far as the movement of low level or mixed low level 
waste to Hanford, as you know, this is the subject of an 
ongoing environmental impact statement. I am not going to 
presume any decisions out of that, but recognize that the 
process is ongoing and it certainly is drawing a lot of 
involvement and engagement. I think that is intended to be part 
of the process and is certainly part of the consideration in 
any resultant ROD from that process.
    Senator Wyden. Well, it just looks to me like a shell game. 
If you move the waste from one site to Hanford, you are just 
shifting a problem from one place to another. Now, explain to 
me how that constitutes cleanup. I guess at some point you can 
just move it from place to place to place, but what people in 
this country want is a real cleanup. So, explain to me how 
moving it from place to place is going to really take us 
forward.
    Ms. Roberson. Well, Senator Wyden, I would probably liken 
it to the disposition of TRU waste at the Waste Isolation Pilot 
Plant. We have to--and when I say we, I mean this is all of our 
problems. This is not just the Environmental Management 
Program's set of issues to address. We have to maximize use of 
all assets available. This complex is a very integrated 
complex. It always has been. It did not just become that way 
with the Environmental Management Program and does indeed have 
meaningful and environmentally protective assets at different 
locations across the site.
    Our proposal, our path forward--which is also not simply a 
new element of an accelerated cleanup plan, but was certainly 
identified in the Waste Management EIS performed before we even 
began this endeavor--to complete an evaluation of disposition 
of low level or mixed low level waste at the Hanford site this 
is one of the options.
    Senator Wyden. I think what is so troubling to me is what 
is going off-site to WIPP could be a couple of steps forward. 
Nobody is going to debate that. But what is coming to Hanford 
for disposal seems like thousands of steps backward, and that 
is why I am so troubled about this question of just moving it 
from place to place. But I do want to ask you about a couple of 
other areas.
    The Energy Department's top to bottom review, its budget 
request, and the management plan all propose closing single 
shell tanks containing high level waste without first 
retrieving as much waste as technically feasible, as required 
by the Tri-Party Agreement, and vitrifying the waste for 
permanent disposal. Now, more than 60 of those tanks are known 
to have leaked at least 1 million gallons of wastes that are 
already moving toward the Columbia River. If you do not empty 
out the tanks, as required by the Tri-Party Agreement, are you 
not lowering the standards for cleanup and again just leaving 
the problem behind?
    Ms. Roberson. Senator Wyden, we have proceeded aggressively 
in implementing a tank waste retrieval program, in the 
installation of equipment. We are proceeding aggressively on 
that. And our commitment is to remove as much waste as 
feasible, as we have committed to do. There is a recognition 
that this does not mean that we know how to remove every drop 
of waste, but it is our commitment to remove as much waste as 
feasible.
    Senator Wyden. I think again what troubles me, because I 
know you are looking at various alternatives and you have 
talked in the past about looking at less costly alternatives 
for tank waste such as grouting, it just seems to me that this 
is all so speculative and so hard to actually see producing a 
cleanup. Again, it leaves me troubled that we are going to get 
a whole lot more waste in our part of the world, we are not 
going to have an aggressive cleanup schedule, particularly with 
the changes as it relates to vitrification. That is why I have 
so much trouble with this idea that somehow this is called 
accelerated and real cleanup.
    Attorney General Gregoire, I read your testimony about your 
concern that DOE would leave you with substantially more 
contamination at the site than currently contemplated by the 
Tri-Party Agreement. That is your testimony at page 6. I wonder 
about your sense about DOE's plans to bring tens of thousands 
of truckloads of radioactive waste from around the country and 
to dump them at Hanford. It is this kind of shell game kind of 
concept.
    I gather we have made some progress in recent days on the 
question of the unlined trenches which sounds encouraging in 
that regard.
    But what do you think about this question of so much 
additional material coming to Hanford?
    Ms. Gregoire. From the very beginning, when we negotiated 
in partnership with the State of Oregon the Tri-Party 
Agreement, we have stood on the very principle that no waste 
comes to Hanford until waste that is at Hanford is treated and 
stored and properly disposed of.
    For example, why is it that today we still have some 2,000 
cesium-strontium capsules? Those need to be removed from 
Hanford and properly stored.
    Why is it that we have the largest amount of transuranic 
waste, 75,000 cubic meters? That needs to be properly removed 
and stored and treated and taken elsewhere.
    The bottom line is the tanks, as you mentioned. 177 of the 
200 total in the entire complex at Hanford with a large number 
of them leaking have to be removed.
    And our position is not just what is technically feasible, 
but no less than 99 percent. And Senator, when we first engaged 
in the Tri-Party Agreement, we wanted all of the waste removed. 
We wanted the tanks removed themselves, everything associated 
with it.
    So, unless and until we see progress in those areas, we 
have said consistently all the way along no additional waste at 
Hanford. We want to be a good partner, but partnership means we 
get on with the cleanup at Hanford before Hanford has to 
sacrifice more and take more waste.
    Senator Wyden. You summed it up as far as I am concerned. I 
think the only other question I have for you, Attorney General 
Gregoire, is you were quoted in the paper something again that 
I agree with. I find myself agreeing with you so often. You say 
that there would be no quid pro quo for Hanford taking this 
waste in exchange for getting more progress with cleanup. What 
is in it for Hanford and, again, the people who live downstream 
in my home State in terms of this whole kind of deal? It sure 
does not sound like there is much in this for us.
    Ms. Gregoire. Our concern is for Washington, Oregon, and 
Idaho because of the Columbia River and its vitality and 
importance to the Pacific Northwest. We did not want the $800 
million set-aside that was set in place by Energy and the 
incentive package that if we signed up with the intent that we 
would agree to accelerated cleanup. The quid pro quo was that 
we would agree to take additional waste, that we would agree to 
do additional things.
    As far as we are concerned, the first and foremost 
responsibility as a result of what happened at Hanford to 
particularly those three States is that we make sure we get 
that cleanup done, and there is no quid pro quo for that. That 
is what the law of Congress has set down. That is the law of 
the respective States. That is the Tri-Party Agreement.
    So, we did not want any suggestion that with accelerated 
cleanup agreements the quid pro quo would be that Hanford would 
take additional waste and put at risk even greater the Columbia 
River and particularly those three States. So, that was my 
comment about quid pro quo.
    Senator Wyden. For the administration--my time is up--just 
know that you are going to have this member of the U.S. Senate 
fight with everything I have at the idea that we are going to 
transport thousands of additional truckloads of radioactive 
waste, an estimated 70,000 of them, across the country to 
Hanford when we are not dealing with the problems that Attorney 
General Gregoire and others have outlined.
    I know my colleagues want to ask some additional questions. 
I repeat again, as I did with Senator Craig, my desire to work 
with my colleagues in a bipartisan way so that we can get real 
and cost-effective cleanup. But this may be accelerated, but 
there sure is not a lot of cleanup in there to me.
    I think now at this point it is Senator Cantwell's turn. In 
fact, I will return the gavel to her. Senator Domenici is back 
and wants additional questions.
    Senator Domenici. I just want to make an observation.
    Senator Wyden. Is that all right, Senator Cantwell?
    Senator Cantwell. Yes.
    Senator Wyden. Senator Domenici.
    Senator Domenici. Thank you very much.
    Again, I want to thank all of you for the work you are 
doing in this field, but I also want to say thank you once 
again to you, Jessie, for your work and a couple of 
observations.
    Let me say that a couple of Senators are the ones who 
handle almost all the funding for the projects we have 
testified to today. I wish at some point we would finally have 
an agreement between the State with a major problem and the 
U.S. Government that would bring most of the players up here to 
say they trust everybody. I just hope we are not--because it is 
a serious and difficult and political problem, I hope you do 
not think that those of us upstream up here are trying to be in 
concert with anybody who is trying to pull the wool over 
anybody's eyes or do any State an injustice when we know what 
we are supposed to be doing. We are trying to pay for it and 
see that it gets done. I do not know how we get the acrimony 
out of things that have been sort of that way for 15 years, but 
it looks like some hard-nosed issues are getting agreed to and 
that is the first sign of progress in my opinion. I hope that 
is the case. I hope you are doing that.
    To Mr. Maggiore from New Mexico, I would hope that with 
what we have heard here today we will be able to resolve the 
issue that brings you here. If you were saying that you filed a 
lawsuit because you could not get the attention of the 
administration, I do not know how long you have to wait to find 
out that you have. But they are going to do what they said. I 
really do not believe that we need a full-blown testimony 
lasting forever on that issue that you have raised. I think we 
have been treated fairly in comparison to any other State. We 
have not gotten as much money, but we will never get as much 
money as Hanford, not as much per year. There are three or four 
or five of them far more costly than ours.
    So, I am glad you came, and to the extent that you heard 
what we are telling you, we tried our best. The other Senator 
who I think acts very, very fairly is the Senator from Nevada. 
He is my partner in appropriations. I do not think I would take 
money away from the State of New Mexico on these projects, and 
you have not indicated that I would. They are taken care of 
pretty well.
    Could you just take 1 minute and tell us for the record 
what is the situation for New Mexico right now?
    Ms. Roberson. As far as progress in the accelerated cleanup 
plan?
    Senator Domenici. Yes.
    Ms. Roberson. We have performance management plans drafted 
at Sandia, Los Alamos, and the WIPP site. Those are undergoing 
public review. I think they are progressing well. I think we 
will have those in place and agreed to by August 1, if not 
before.
    Senator Domenici. Does that require New Mexico to agree 
with you on something or do you proceed unilaterally?
    Ms. Roberson. It is the specificity of the details that 
support the letters of intent that we agree to.
    Senator Domenici. Thank you, Madam Chairman.
    Senator Cantwell [presiding]. Thank you, Senator.
    Senator Domenici. Thank you, Peter.
    Senator Cantwell. I would like to go back to Assistant 
Secretary Roberson on a few issues. I appreciate your 
indulgence. These are important to the State of Washington. As 
I think I articulated briefly in my comments before we got into 
the testimony, we have had so many stops and starts in our 
State as far as the long-term success that we have needed to 
make, that these issues become critically important in any kind 
of new proposal.
    I know you are familiar with the DOE order 435.1, which was 
done in December 1999, which was about reclassifying high level 
tank waste. While that was done prior to any kind of new 
proposals on cleanup, in order just to quell the concerns and 
fears that we have in Washington State, will you commit that 
DOE is not going to attempt to use that order as a way to 
reclassify the waste in Washington State without going through 
a stakeholder process, which would then again break the Tri-
Party Agreement?
    Ms. Roberson. Senator Cantwell, DOE order 435.1, which 
contains guidance on the technical basis, and includes manuals 
for management of radioactive waste, as you said, was issued in 
1999. It did include a chapter on high level waste with a set 
of requirements that address waste incidental to reprocessing, 
WIR, as we commonly call it. Within that chapter it identified 
requirements that would allow management of tank waste as for 
managing non-high level waste if specific criteria were met. It 
is not misaligned with the EIS or the ROD that was issued for 
management and disposition of the high level waste at Hanford.
    It has been our proposal to implement that order. That 
order and its manual went through a fairly extensive public 
process during development and issuance. It is our intent to 
implement that order as it was designed.
    Senator Cantwell. If the stakeholders in Washington State 
do not agree with that reclassification?
    Ms. Roberson. We do not believe that we are reclassifying 
material. As you well know, there is a lawsuit ongoing. In May 
the Department filed a motion in the Idaho District Court to 
dismiss the lawsuit as we believe it is without merit. Oral 
arguments are scheduled for July 22. Because that is in ongoing 
litigation, it is probably all that I can say at this point.
    Senator Cantwell. You cannot say whether you will work with 
the stakeholders in Washington State?
    Do you understand we signed an agreement on August 1? We're 
not clear about what reclassification means. The Department of 
Energy comes back and says, you know that waste in half of the 
tanks, we're going to reclassify a third of that to be 
something that is less than high level waste, incidental to 
reprocessing, and we are not going to retrieve that. In fact, 
we are just going to take the tanks and close them after we 
process half of the waste. Do you understand where that leaves 
us in Washington State?
    Ms. Roberson. Yes. I understand the concern. I clearly 
understand that there is a concern, otherwise we would not have 
a lawsuit that we were working through. We do not believe we 
are proposing to reclassify waste. We believe the actions that 
we have proposed are consistent with 435, which is also 
consistent with the EIS.
    Senator Cantwell. So, one great way to, obviously, quell 
the fears then would be to agree that decisions will be made 
with consensus of the stakeholders and those a party to the 
Tri-Party Agreement. Any kind of plan to reclassify waste in 
the tanks would be subject to the Tri-Party Agreement, and you 
would have the agreement of the stakeholders in Washington 
State Environmental Protection Agency and others who have been 
tracking this process. So, they would also agree on whatever 
plans for any kind of reclassification of the waste in the 
tanks.
    Ms. Roberson. I think what I can say is we do not believe 
we are proposing to reclassify waste.
    Senator Cantwell. Earlier I asked a question as it related 
to the Tri-Party Agreement, and maybe we should ask the 
Attorney General to jump in here. But my understanding of the 
question that I asked you is, would you, on the tank waste 
retrieval process, comply with the Tri-Party Agreement? And you 
said yes, that you would. And part of the Tri-Party Agreement 
is terminology that says you have to clean up 99 percent, and I 
believe the language is ``and is technically feasible.''
    Ms. Gregoire. Everything that is technically feasible but 
no less than 99 percent.
    Senator Cantwell. But no less than 99 percent. So, maybe we 
should go back over your testimony on that. But my 
understanding is you said yes. That would commit you then to 
processing all the waste that is in those tanks.
    Ms. Roberson. I believe--and I happened to bring it with me 
because I knew it was important to be very clear--the 
Department's commitment, which is a reflection of the 1996 EIS 
for tank farm cleanup, says that the Department is committed to 
recover as much waste as technically feasible and it in 
parentheses highlights that that is assumed to be 99 percent. 
We believe that also means that if it is not technically 
feasible, we have an obligation to come back, and that would be 
our intent. But our intent is to fulfill our commitment as 
captured in the Tri-Party Agreement.
    Senator Cantwell. Which is 99 percent.
    Ms. Roberson. Which is to remove as much waste as 
technically feasible.
    Senator Cantwell. Then I think we have a disagreement here 
and a big hole in a plan that can be signed and agreed to by 
August 1 because I do not think anybody is going to agree to a 
plan in which the definition of that waste and how it is 
processed is up in the air in DOE's hands alone. No one is 
going to agree to that kind of a plan because they cannot. We 
cannot come back and find out that we are only going to process 
half of it and we are going to leave half of it in. Or unless 
you agree today that the stakeholders in Washington State, the 
various agencies, will have a say in that agreement and will 
not have something just shoved down their throat.
    Ms. Roberson. And they are, indeed, having a say in that 
agreement even right now. This topic was discussed extensively, 
and I am sure it was not the first time. But I had the 
opportunity to witness the dialogue myself between the parties 
to the cleanup agreement, as well as members of the public that 
participated in that conversation. So, they are, indeed, having 
the opportunity to participate.
    Senator Cantwell. Having input and having the State of 
Washington stuck with high level waste in tanks that they think 
should have been retrieved will not be a sufficient plan for 
us. I do applaud the larger goals of multiyear funding and 
expedited cleanup for a whole variety of reasons. For one, we 
have a very serious problem as that handout showed of the plume 
going to the Columbia River. Secondly, it is important to the 
taxpayers in the country that we do this in the most efficient 
manner possible and not delay it.
    So, there are some very good goals to this plan. But you 
have to understand you cannot leave the State with the 
responsibilities of cleanup. We cannot agree to something now 
that is unclear on the specifics of what DOE's continuing 
obligations in this process are going to be.
    So, we need to either have, one, the clear definitions so 
that we understand, or an agreement that will have sign-off in 
the future. I do not want to speak for our Attorney General, 
but my sense is those are the two options that we would like to 
see. We do not want to see vague language and no commitment for 
sign-off in the future because that leaves us with uncertainty.
    Ms. Roberson. Senator Cantwell, I think there is obviously 
a sign-off even today, as well as in the future, should 
information avail itself that changes it and the fact that we 
are not proposing to change this commitment in the Tri-Party 
Agreement.
    However, I would say I think the debate is actually 
relevant as we proceed with technology applications for 
retrieval because that is the context of this issue. Our 
commitment is to remove as much waste as technically feasible, 
and I think that we will certainly have to conduct that work 
and have done so in the past in collaboration and discussion 
with the regulators and the public.
    But the real debate here is not reclassifying waste. It is 
how much waste can we retrieve. To me that is the real work. 
Both technologically and operationally we have to participate 
in that and make sure that it satisfies that commitment that we 
have made.
    Senator Cantwell. I want to give the Attorney General a 
chance and anybody else who wants to jump in here, although it 
is not directly related to some of the States, but they may 
have a similar experience.
    I would just say--well, first, I want to just clarify. On 
those budget numbers that you said we would get in the next 
couple of weeks or before August 1, we are going to get 2003 
and 2004, throughout the plan's duration. We are not going to 
just see 2003. Right? We are going to see what the proposal is 
for the multiyear funding.
    Ms. Roberson. Yes. We have a requirement in the Tri-Party 
Agreement to share 2004, and 2004 clearly is a follow-on to the 
performance management plan as well in that it is not just a 1-
year plan. That is correct.
    Senator Cantwell. So, we will see those numbers.
    Ms. Roberson. And in fact, you have seen 2003. What I 
understand is presenting the discontent is the specificity to 
the detail of activity by activity, which again has to be 
aligned with the activities that we agree to do. So, absolutely 
you will see 2003 in greater specificity than thus far, but 
also 2004.
    Senator Cantwell. And 2005 and----
    Ms. Roberson. Well, I can commit to 2003 and 2004 right 
now. I had the opportunity to talk with them. Our plan is to 
lay out a funding profile through 2008.
    Senator Cantwell. But we will only be able to see up till 
2004 of that?
    Ms. Roberson. I do not know that you will able to see it 
with the same degree of specificity, but I think you will able 
to see the funding profile proposed to accompany that scope of 
work.
    Senator Cantwell. We will come back to this in a second. I 
wanted to give the attorney general a chance too. Obviously, 
this issue of reclassification of waste as incidental to 
reprocessing is an issue as it relates to the Tri-Party 
Agreement. Do you think that that would be circumventing the 
Tri-Party Agreement?
    Ms. Gregoire. I think that what has led to this confusion 
is two things. One, the order 435.1 of 1999 and the NRDC 
lawsuit that has been brought now in the State of Idaho where 
NRDC believes that the intent behind the order is to redefine 
high level waste to low level waste and then allow that waste 
to be left in the tanks. That has caused concern in the State 
of Washington, Idaho, and Oregon, for obvious reasons.
    The second thing that has led to the concern is the May 1 
proposed plan left everybody understanding that in order to 
accomplish what was set forth there, they had to leave waste in 
the tanks.
    The combination of those two things has led the 
stakeholders in the State of Washington to engage in 
considerable rumor about really what is the underlying intent 
of accelerated cleanup, and how do you define accelerated 
cleanup?
    We have made, at the negotiating table, as the Secretary 
indicated, considerable progress towards clarifying that. We 
really do need to put this issue to rest, however, because this 
has been the skepticism since we first signed the Tri-Party 
Agreement in 1989. What does cleanup of the tanks mean? And the 
vision of the State of Washington, at least at that point in 
time, was removal of all waste and the tanks. Now it is removal 
of all waste, that which is technologically feasible, but no 
less than 99 percent. We have got to iron this out. We have got 
to get this committed to so that we can get rid of this 
mistrust and skepticism and litigation.
    On Monday, we will file an amicus brief in the litigation 
and we will ask the two parties to it, the NRDC and DOE, to 
agree to go to the table with us and negotiate a resolution of 
that issue rather than litigate it in the courts to finally put 
this issue to rest, that without any doubt that everybody has a 
common understanding--and Congress would play a major role in 
that--that the absolute intent of DOE is to remove no less than 
99 percent but all that is technologically feasible, which I 
hope is more than that, from the tanks at Hanford and then 
process them and treat them, store them properly, and send them 
off to the appropriate storage places as a result of the 
removal and retrieval process.
    But you are absolutely right, Senator. This has caused 
considerable concern back home, and this particular issue is 
the one which causes the greatest concern. If you look 
currently at the contamination that has been detected in the 
Columbia River, much of it high level waste that is in the 
Columbia River currently is from the 200 central plateau area 
of Hanford. Now, I cannot tell you that specifically comes from 
the tanks or the trenches or what have you, but the bottom line 
is it is coming from the 200 area where the tanks are. The 
iodine plume that I showed you is just an example of dramatic 
movement. We already know many high level contaminants are 
already detected in the Columbia River. We can never afford to 
have that river contaminated. We have got to stop the source 
and then treat, and stopping the source is removing all the 
waste from the tanks. That is why the terrible consternation in 
the State of Washington as to whether they can now trust the 
DOE is actually going to remove all of the waste from the 
tanks.
    Senator Cantwell. Do either of the other witnesses want to 
say something on this subject?
    Ms. Trever. Thank you, Madam Chairman.
    Idaho, as Attorney General Gregoire mentioned, also has 
some interest in the outcome of this litigation since we too 
have a smaller number of tanks that may be subject to this 
waste classification order. I would just second the attorney 
general's comments about making sure there is a common 
understanding of what the goals of cleanup are so that we can 
move forward in this regard.
    Senator Cantwell. Well, I certainly agree. I think that 
this provision undefined is a loophole that you could drive a 
truck through and really makes the agreement not worth doing if 
you do not have the definitions set. Otherwise, States could be 
left with reclassified waste as incidental to reprocessing, and 
States may not necessarily agree with DOE's decisions and get 
stuck with that waste.
    I want to ask the Attorney General, you focused in your 
testimony about just this plan in general, the accelerated 
process. I want to make sure that as we are going through this 
initiative, that we have created the right vehicle. As I have 
said, there are some great goals here, getting cleanup done 
faster because of the environmental urgency and at lower cost 
to the taxpayer is certainly very, very admirable. But has this 
initiative caused us other problems or challenges that we 
should be addressing?
    Ms. Gregoire. Well, as I mentioned, who is against 
accelerated cleanup? Who is against saving taxpayers money? Who 
is against cleaning up and avoiding the security risk, the 
public health risk, the safety risk, the environmental risk 
that Hanford poses today?
    The problem is, again, the lack of specificity, if you 
will, in the May 1 proposal has led to considerable concern 
back home that the intent here is to expand the definition of 
where we do our testing for groundwater contamination. Moving 
the goal line is considered to be a terrible way to go. The 
idea that, well, forget the Columbia River is so large and so 
free-flowing there. The old idea of the solution to pollution 
is dilution does not work in this instance. The bottom line is 
we cannot afford to have any contaminants reaching the Columbia 
River. Despite the fact we already have some, we have got to 
stop the source. The lack of specificity in the May 1 plan 
caused considerable consternation.
    Coming forward with the $800 million pot of money, if you 
will, also caused concern. The concern there was what was being 
asked in return for it. Was it a good faith, let us agree to 
accelerated cleanup that is compliant with the laws, compliant 
with the Tri-Party Agreement? Was it the intent to pit one 
State against the other, which the States have always remained 
united. No State wants to take money from another State. We all 
want to get the cleanup done at every single site and we refuse 
to have the States pitted against each other.
    Those kinds of things were discussions at the National 
Association of Attorneys General level in which we communicated 
to the Secretary please remember that we, the States, stand 
united on this cleanup effort. We will not fight against each 
other. We want sufficient funding to do the job that is 
required by law at each and every one of the sites.
    Since that initial consternation, we have made considerable 
progress. Now, the devil is always, as I mentioned, in the 
details. We have got to get it done and we have got to get it 
done by August 1. We have got to see the budget, which we have 
not yet seen in the specificity as you mentioned, Senator, that 
we need.
    So, I guess it is one of those kinds of situations where I 
can come back and tell you more in a month, but the process 
that we have engaged in here has led to considerable concern 
against a backdrop of, unfortunately, far too much 
mismanagement, far too many failures, far too much paper 
shuffling and not getting the job done, that set against the 
backdrop of ultimate secrecy during the time that the Hanford 
operation was in full force and effect, the results of which is 
this mistrust, frankly, that has been inherited, has also been 
added to by the lack of specificity in the May 1 agreement and 
this mistrust about what is the $800 million intended to do.
    Is it intended to pit the States against each other? And if 
so, we do not want to play that game. Is it intended to force a 
quid pro quo? You take more waste or you do not get the money 
that you should for the cleanup? If so, we do not want to play 
that game.
    The bottom line is we need to work our way back through 
this to get back out and get the citizens of the respective 
States, New Mexico, Idaho, Washington, and others, to trust 
this process, trust that this is good faith and meaningful and 
that we are going to get on with the job and do exactly the 
overall intent, accelerated cleanup which is in compliance with 
the laws, which is with good management, which is frugal with 
respect to public money, and is in good communication with the 
public at large, and finally, finally, finally will get us 
cleaned up.
    Senator Cantwell. Does Assistant Secretary Roberson's 
specificity on 2003 and 2004 do that job? It is a little 
unclear to me what the broader numbers are going to be for 
years after that. So, what is it that you need to see for 
specificity in funding?
    Ms. Gregoire. Well, we have not seen the specificity with 
respect to 2003 and 2004 because we have not finished the 
negotiations on the accelerated cleanup plan. But as soon as 
that is done, we under the Tri-Party Agreement are entitled to 
have received it sometime past, and if we do not think it meets 
the commitments of the Tri-Party Agreement, then we engage in 
negotiation.
    Once we get that, we need to opportunity, Senator, to be of 
assistance to both the Department and to Congress to tell you 
whether we think the specificity contained in 2003 and 2004 
will, in fact, meet the obligations under Federal and State law 
and the Tri-Party Agreement. So, when we see that again, as I 
mentioned, probably in a month I could answer the question 
better, but we have to have that specificity under Tri-Party 
Agreement to ensure to Congress that, yes, the obligations of 
what Congress has set forth in the Tri-Party Agreement are to 
be accomplished with that budget.
    Senator Cantwell. And do you think that you could sign an 
agreement that was unclear about the reclassification of tank 
waste?
    Ms. Gregoire. No. As I mentioned, if we do not get over the 
mistrust, if we do not add the specificity--and I say that I 
think for my colleagues from both of these States and from the 
other States that are directly affected. We have got to get 
this issue behind us of what is the definition of cleanup. And 
that does not mean how do we treat it. That does not mean the 
science behind it. That means an absolute, without question 
commitment by the Department of Energy that all of the waste 
from those tanks is going to be removed, no less than 99 
percent and anything beyond that that is technologically 
feasible.
    Senator Cantwell. Do any of the other panelists want to 
comment on that, either the broader impacts of this process as 
a new initiative or the budget?
    Mr. Maggiore. Madam Chair, if I might. Your original 
question, I believe, was, has it caused other challenges, and 
let me just refer back to my testimony in terms of having the 
concept of long-term stewardship better developed. I do not 
think that is something that has been mentioned by the other 
panelists, but in New Mexico that is an issue that is very much 
on our minds. What does that mean? What is the level of effort 
and what is the funding associated with that?
    In addition, the interconnectedness that you heard 
mentioned between our States and the facilities in those 
States, it puts States in somewhat of a unique position in that 
typically having advocated only for our own facilities but now 
with the vision by the Department of Energy and recognizing 
that interconnectedness, having us become more aware of what is 
going at Idaho, what is going on at Rocky Flats, and what that 
means in terms of our State and what we should be supporting.
    Personally, I have not seen any goal line moving or any 
quid pro quo types of negotiations. I sat in personally on the 
development of the proposals for the accelerated cleanup and on 
several occasions sent the Department of Energy back to the 
drawing board because we were not satisfied with what was 
coming up. It did not seem to meet the challenge of the top to 
bottom review. It did not seem like something that I could 
support to my Governor or the taxpayers would support in being 
new, innovative, and accelerated. To the Department of Energy's 
credit, they went back to the drawing board and ultimately 
presented a program that I could support to my Governor and I 
could sign onto with the Department of Energy.
    So, thank you for letting me make those comments.
    Senator Cantwell. Did you want to add something, Secretary 
Roberson?
    Ms. Roberson. Senator Cantwell, I would say--what I would 
like to say or what I will say, given the opportunity, is that 
these are all very hard issues. Our intent is not to minimize 
the difficulty associated with them. Many of the issues that 
are very much in the forefront of our mind right now have laid 
dormant for far too long. We are the people who really need to 
assess where we are and what availability of knowledge and 
experience and technology we have to apply to solving those 
issues.
    The degree of executive energy and involvement among all of 
the parties to these agreements has been tremendous. Quite 
frankly, that is the only way we will work through some of 
these hard issues because there are people like us who built 
the facilities and ran the operations, and it is people like us 
who are going to have to address the issues as a result of 
that. And that is what we are doing, and that is the intent of 
this program.
    Senator Cantwell. Well, I think I certainly supported your 
nomination and people from throughout the cleanup process from 
our State have been positive about your appointment on 
environmental management. But I think you have to think 
historically about Washington State's experience and the 
experience of the taxpayer. We have spent $35 billion at 
Hanford. $35 billion and we have yet to vitrify one log of tank 
waste. So, to them, a new program is going to be met with a 
great deal of skepticism.
    So, I think you have said a couple of things today, and you 
might have to go back and look through your testimony. I heard 
you at one point saying you will agree to the Tri-Party 
Agreement. The Tri-Party Agreement is very clear. It is 99 
percent.
    In other cases, I think that maybe this issue of 
reclassification is still out there, and I do not think we are 
going to get that answered today. But what I will say is that 
my sense is that you are going to run into a problem, as you 
should, with these individual States as you are negotiating, if 
we are not clear about both the budget terms and the cleanup 
process. We at least need to know that you are committed to the 
same goals. I would say at least for me, although I think some 
of my colleagues will join in, this program will not be 
successful here if those questions are not answered, because 
otherwise, we just have too big of a loophole, too big of a 
question mark with the history and the series of missteps. 
Again, that has occurred over many administrations, over many 
directors, over many people involved. But yet, we have to deal 
with this with a great, great deal of skepticism given the 
amount of money and time that we have already spent on this 
issue.
    Did you have further comments? If not, I have a question 
for Dr. Patrinos who has been so nice to sit through all of 
this.
    Ms. Roberson. Actually, I will hold it.
    Senator Cantwell. Dr. Patrinos, it was great having you in 
Washington for the spectrometer ribbon cutting. We appreciate 
your coming there.
    Dr. Patrinos. Thank you.
    Senator Cantwell. Given the robust nature of the science 
and technology budget for cleanup efforts and the proposed 
switching of the Environmental Management Science Program from 
EM to the Office of Science, are there mechanisms in place to 
make sure that the investment has a significant impact on 
accelerated cleanup? And can you make assurances that the 
funding awards will really impact those environmental cleanup 
challenges?
    Dr. Patrinos. Indeed. First of all, I also enjoyed the 
event we had at the EMSL, and I was delighted to see you there.
    As I mentioned in my prepared remarks, the partnership that 
we have had with EM is a longstanding one. The environmental 
management science program that the administration is proposing 
to move to the Office of Science and in my office specifically 
is one that we have partnered with from the very beginning 
since 1995. The Office of Science has been doing the peer 
review of the proposals that are received as a result of the 
solicitations, and our colleagues in the Office of 
Environmental Management who own the problem and, as I 
mentioned, are on the front lines have been involved in the 
relevance review. We have been side by side dealing with this 
program and we have learned a lot from each other. I think they 
have gained a greater appreciation of the value and the long-
term possibilities that the basic science program can offer, 
and also in the Office of Science we, frequently having been 
accused of being in our ivory towers away from the real 
problems, have actually learned how science could be translated 
into technologies and ultimately having them deployed for the 
solution of real problems, such as the cleanup problem, perhaps 
one of the most challenging problems facing the Department of 
Energy.
    So, we are starting this new phase of the partnership with 
a lot of experience with each other, and we are certainly 
committing to continuing that partnership in the years ahead. 
In the Office of Science we commit certainly not to forget what 
this research program was all about and what the ultimate 
objectives are. We need to make sure, of course, that the 
program is still basic science so that it does not get too tied 
to a specific problem and go down a specific path because then 
it becomes applied science and that strays away from our 
original mission. Our objective is to provide knowledge, a 
knowledge base that could then be applied for the development 
of technologies. Eventually they are problem-specific 
eventually or site specific.
    The biological effort, specifically in bioremediation, 
holds great promise given the advances and the biological 
revolution brought about by the genomics field. We could 
develop the tools for bioremediation that could then be applied 
to a specific site and for a specific problem where the problem 
is different from site to site and from circumstances to 
circumstances. That is our objective.
    And I am very optimistic that given the track record that 
we have had, we will be able to deliver on the time scales, of 
course, that basic science can deliver, which are the long-term 
problems, the intractable problems that I believe we will be 
left with for many years.
    Senator Cantwell. So, part of the 2003 budget transfer from 
EM to the Office of Science does not include any money for new 
starts of technology. So, is that a problem?
    Dr. Patrinos. We will have to reevaluate the program as it 
currently is and contemplate whether we will issue new 
solicitations. We try to do that, frankly, even every year with 
existing funds and even if the funding is flat. We recycle the 
program because all grants are roughly 3-year grants, and there 
are some that would come to a natural completion at the end of 
the next fiscal year. So, there is a possibility, as we review 
the program and scrub it, that we will issue a new solicitation 
for new starts across the scientific community.
    Senator Cantwell. Well, unless there are any other comments 
by any other panelist, we are going to adjourn this meeting. 
But I thank the Department of Energy and the individual States 
for coming to present their testimony.
    I think we have heard a lot today, but I think it points 
out that there is a lot more yet to be done on the 
specification side and we will look forward to hearing more 
details about individual negotiations and about the plan on 
accelerated cleanup.
    We are adjourned.
    [Whereupon, at 12:05 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                              Department of Energy,
               Congressional and Intergovernmental Affairs,
                                   Washington, DC, August 27, 2002.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: On July 11, 2002, Jessie H. Roberson, Assistant 
Secretary for Environmental Management, and Dr. Aristides Patrinos, 
Associate Director for Biological and Environmental Research, Office of 
Science, testified regarding the department's process in implementing 
its accelerated cleanup initiative and the changes the department has 
proposed to the Environmental Management Science and Technology 
Program.
    Enclosed are the answers to 14 questions submitted by Senators 
Cantwell, Craig, Domenici, and Graham. The one remaining answer is 
being prepared and will be forwarded to you as soon as possible.
    If we can be of further assistance, please have your staff contact 
our Congressional Hearing Coordinator, Lillian Owen, at (202) 586-2031.
            Sincerely,
                                        Dan R. Brouillette,
                                               Assistant Secretary.
[Enclosures]
              Responses to Questions From Senator Cantwell
                         river corridor project
    Question 1. A big part of Hanford's cleanup future includes 
accelerating remediation of the river corridor. Wouldn't you agree that 
the river corridor project needs a focused effort by the Department and 
its contractors that emphasizes closure and the deployment of 
innovative approaches to accelerate the schedule and reduce costs to 
get more actual cleanup done?
    Answer. We agree. The new contract for the River Corridor Project 
at Hanford emphasizes accelerating remediation of the River Corridor 
through a focused effort to apply innovative approaches to reduce costs 
and accelerate the cleanup schedule, similar to the successful approach 
taken at Rocky Flats. It is estimated that this accelerated approach 
will save hundreds of millions of dollars over the life cycle of the 
project and help accelerate the overall Hanford cleanup by decades. 
This is the first Strategic Initiative in the Performance Management 
Plan for the Accelerated Cleanup of the Hanford Site, and there is 
strong support from stakeholders, including the state regulators, the 
U.S. Environmental Protection Agency, and the local community, for this 
new contract and project approach. Contractor proposals on the new 
River Corridor Contract at Hanford are currently in the evaluation 
process by the U.S. Department of Energy (DOE). It is expected that 
this contract will be awarded within the next few months.
               new manager at office of river protection
    Question 2. As I have repeatedly emphasized, successful cleanup of 
the Hanford site depends on the strong support of all the major 
stakeholders, including the state regulators and the local community. 
It's important that the Hanford site managers work well with the 
stakeholders in advancing cleanup of Hanford and protecting the river.
    Will you encourage the new manager of the Office of River 
Protection, Roy Schepens, to continue the practice of developing strong 
stakeholder relations, especially with the state regulators?
    Answer. I will continue to encourage Roy L. Schepens, and all of 
the managers at DOE sites across the complex, to build collaborative 
relationships with regulators and stakeholders. DOE is committed to 
maintaining open and constructive relationships with regulators and 
stakeholders. We view this as one of our core responsibilities to the 
states hosting DOE Sites.
    Mr. Schepens was selected to manage the DOE Office of River 
Protection because of his first-hand experience in waste treatment at 
the DOE Savannah River Site, where tank waste is currently being 
vitrified. Successfully working with state and Federal regulators, the 
stakeholders, and the public was an integral part of that process. The 
Office of River Protection has already built a positive and mutually 
beneficial relationship with its regulators and stakeholders, as 
evidenced by the streamlined and accelerated permitting process that 
allowed limited construction of the vitrification plant to begin five 
months in advance of the Hanford Federal Facility Agreement and Consent 
Order milestone date. I encourage Mr. Schepens to continue that 
positive trend during his tenure as Manager of the Office of River 
Protection, and to build upon that existing relationship with 
regulators and stakeholders.
                       work with local community
    Question 3. Will you continue the efforts at Hanford of working 
with the local community in a collaborative and constructive manner?
    Answer. Yes. Local community interests are well represented on the 
Hanford Advisory Board, so we learn monthly (or more frequently) their 
perspectives on Hanford issues. In addition, the DOE Richland 
Operations Office Manager, Keith A. Klein, and the DOE Office of River 
Protection Manager, Roy L. Schepens, attend monthly meetings of the 
Tri-City Industrial Development Council Subcommittee on Hanford, 
working closely with area business leaders through that interface. 
Also, Mr. Klein and Mr. Schepens schedule quarterly meetings with local 
elected officials to discuss Hanford and community issues. Of course, 
should specific issues arise, DOE managers and staff are always 
available to meet individually with local community representatives. 
Finally, the Richland Office of Communications has a staff member 
assigned to interact with local government officials and the Hanford 
Communities group in order to share their concerns with senior 
managers.
               Responses to Questions From Senator Craig
                   science and technology shortfalls
    Question 1. Secretary Roberson, your revamped EM Science and 
Technology Program proposes to look at thirteen environmental 
challenges to accelerated cleanup and closure across the EM complex. 
According to the documents I have seen, none of these challenges to 
accelerated cleanup are connected to issues at the INEEL.
    In your view, does DOE have all the technology it needs to address 
sodium bearing waste and buried waste at the INEEL?
    Answer. We believe adequate technological approaches exist and have 
been reviewed by EM. The Idaho accelerated cleanup strategy outlines 
seven priorities that include both the removal and stabilization of the 
sodium bearing liquid waste from the tank farm and making significant 
progress in the remediation of buried waste at INEEL consistent with 
the Pit 9 agreement of April 18, 2002.
    There are candidate technologies for the remediation of both 
wastes. However, performance evaluations, further development, and 
optimization are required to ensure that the most appropriate 
technologies for the cleanup operations are selected and used.
    There are several candidate technologies for treatment of the 
sodium bearing waste at INEEL. These technologies must be evaluated to 
select the process that will be used for treatment of the sodium 
bearing waste and then to optimize the process selected to produce a 
waste form that can be shipped for disposal in the Waste Isolation 
Pilot Plant, to reduce secondary waste, ensure worker safety, and to 
minimize costs. The EM Science and Technology Program plans to fund a 
technology development effort in FY 2003 to support the accelerated 
cleanup for the sodium bearing waste at INEEL.
                   coordination of homeland security
    Question 2. In testimony before the House Commerce Committee on 
June 27, Dr. Raymond Orbach--Director of DOE's Office of Science--noted 
that he had identified a single point of contact within each of the 
Office of Science national labs to act as a vehicle to transmit 
research and development to the Office of Homeland Security. I 
understand that the DOE weapons labs have a similar point of contact.
    Secretary Roberson, as the lead secretarial office for the INEEL, 
have you appointed an INEEL contact for homeland security issues?
    Answer. No, we have not appointed an INEEL contact for homeland 
security issues. However, we have gathered information from INEEL, the 
Savannah River Technology Center and Environmental Measure Laboratory 
on specific technology and research and development activities that may 
be of interest to the Office of Homeland Security and provided that 
information through the Department.
                       subsurface geosciences lab
    Question 3a. Secretary Roberson, the previous administration 
validated a requirement for a subsurface geoscience lab at the INEEL to 
improve our understanding of the movement of contaminants below the 
surface. This information is very important to sites such as the INEEL 
that have large quantities of buried waste.
    Do you believe the DOE could benefit from a better understanding of 
the movement of contaminants below the surface?
    Answer. Yes. During FY 2002, we plan to award over $20 million in 
research grants in the Environmental Management Science Program (EMSP) 
targeted at a better understanding of subsurface contamination issues. 
EMSP transfers to the DOE Office of Science in FY 2003.
    Question 3b. Would you support an external review of the need for 
the proposed INEEL Subsurface Geosciences Lab with the review managed 
by the Office of Science?
    Answer. We consider the subsurface science that DOE's Office of 
Science (SC) conducts, both associated with the newly transferred 
Environmental Management Science Program and through the Natural and 
Accelerated Bioremediation and the Biological and Environmental 
Research programs, as adequate to satisfy the longer-term needs at this 
time.
       environmental management--doe spent nuclear fuel and yucca
    Question 4. Secretary Roberson, the EM currently funds the National 
Spent Nuclear Fuel Program which seeks to make sure DOE-owned spent 
nuclear fuel can go into Yucca Mountain.
    Does this program have a role in Secretary Abraham's effort to 
accelerate cleanup at EM sites?
    Answer. The National Spent Nuclear Fuel Program (NSNFP) at Idaho is 
currently assisting EM to plan, integrate, and execute the analyses and 
activities required to safely prepare DOE spent nuclear fuel for 
interim storage and for ultimate transfer to and final disposal in the 
proposed geologic repository at Yucca Mountain.
    More specifically, these analyses and activities will ensure that 
the DOE spent nuclear fuel meets the criteria for acceptance in the 
repository. The criteria are derived from performance-based Nuclear 
Regulatory Commission regulations. The FY 2003 budget includes $5 
million for NSNFP activities to meet the goals and objectives of DOE's 
effort to accelerate cleanup at EM sites.
    Question 5. In the wake of the successful Senate vote on Yucca 
Mountain and the preparation of a NRC license application, can we 
expect funding for the National Spent Nuclear Fuel Program to increase 
to make sure DOE spent nuclear fuel and high-level waste can go into 
the repository?
    Answer. The recent action taken by the Congress allowing DOE to 
proceed with seeking a license for the repository has reinforced the 
continuing need for the activities performed by the National Spent 
Nuclear Fuel Program (NSNFP) in support of the ultimate disposal of DOE 
spent nuclear fuel in the repository. The Department will provide 
funding to the NSNFP to ensure that the program is effective, and that 
DOE spent nuclear fuel is included in the repository license 
application and will be able to meet repository acceptance criteria. 
The FY 2003 budget requests $5 million for the NSNFP in the overall EM 
budget at the Idaho Operations office.
                             mound closure
    Question 7. Secretary Roberson, the DOE Inspector General released 
a report dated June 27, 2002, which was critical of EM performance 
measures. One example the IG used was the Mound closure date, which was 
listed as 2009. I understand there is some question about this date.
    What do you believe to be the correct estimated closure date for 
Mound?
    Answer. The Department of Energy believes that Mound will be closed 
no later than September 30, 2006. We are in the process of conducting a 
competitive procurement that will lead to a cost-plus-incentive fee 
contract that establishes closure by that date, with incentives to the 
contractor to complete the cleanup earlier.
                            ineel and mound
    Question 8. To what degree have the changes you have made to the EM 
program--combined with the INEEL environmental technology transfers--
contributed to the cleanup acceleration at Mound, and potentially other 
EM sites?
    Answer. We are working to reform the Environmental Management 
program to refocus efforts on our cleanup and closure mission and on 
accelerating risk reduction at our sites. We are committed to the 
closure of Mound and other DOE closure sites by 2006 or earlier.
    Part of this effort involves ensuring that closure sites have the 
necessary technology and technical support to meet closures schedules. 
The Idaho National Engineering and Environmental Laboratory (INEEL) has 
been part of our effort to provide technical assistance to DOE closure 
sites. Among other tasks, INEEL has prepared a cleanup strategy that 
will meet the state of Ohio's regulatory requirements and satisfy 
concerns for worker safety associated with the I Building, which 
contains MOCA(r), a suspect carcinogen. It has also provided assistance 
in monitoring technologies to provide stewardship after transfer of 
ownership and in the difficult task of removal and disposition of silo 
material at Fernald. Although these and other contributions have been 
significant, 2006 closure of these sites remains a challenging goal.
    Other closure site projects that could benefit from technical 
assistance are being evaluated as part of our effort to refocus the EM 
Science and Technology program. ``Lessons learned'' at the closure 
sites can be applied to other DOE sites as they encounter similar 
problems.
              Responses to Questions From Senator Domenici
                         transfer of functions
    Question 1. The President's budget proposes to reduce the Science 
and Technology budget very dramatically. That budget has supported many 
important programs. As just a few examples, I understand that programs 
like: WERC--the Waste Management Environmental Research Consortium led 
from NMSU, University Robotics Program--which includes UNM, and the 
Carlsbad Border Technology Program are all proposed for zero funding in 
the Science and Technology and proposed for transfer to other Offices.
    Just how is this transfer being accomplished, and is EM planning to 
transfer funds with these programs to ensure that these new proposed 
``program homes'' have adequate resources?
    Answer. As part of its initiative to re-focus on its cleanup 
mission, the EM program is examining all its activities to ensure they 
support achieving our accelerated risk reduction and closure 
objectives. There are activities that the EM program currently funds 
that, although they may provide valuable support to Departmental 
activities and/or missions, are not directly related to actual cleanup. 
Some of these activities may be eliminated while others will be 
proposed for transfer to another Departmental element with a mission 
more directly aligned with the outcomes of these activities, thereby 
supporting efforts to re-align the EM program so that its scope is 
consistent with an accelerated, risk-based cleanup and closure mission. 
If the Department makes a decision to transfer an activity, the 
associated budget target and FTEs for all activities would be 
transferred to other Departmental elements.
                      future use of wipp facility
    Question 2. Does the Department recognize that their plans to 
accelerate closure of many sites ``breaks'' their compact with WIPP to 
utilize that facility far into the future?
    Answer. The Department realizes that accelerated closure of many 
sites impacts the long-term use of the Waste Isolation Pilot Plant 
(WIPP). Under the accelerating cleanup plan, WIPP's mission can be 
viewed as two parts: disposal of legacy transuranic waste (primarily 
from past weapons production) and disposal of newly generated 
transuranic waste (primarily from facility decommissioning). Of the 
two, the larger portion is the legacy waste. By completing disposal of 
the legacy waste about 20 years ahead of the current baseline, 
operating costs associated with disposal of legacy waste are reduced by 
approximately $8 billion. After this, WIPP will continue to accept 
newly generated transuranic waste for disposal, but will operate with a 
reduced infrastructure. To continue on the current extended cleanup 
schedule would not support the goal of accelerated risk reduction and 
cleanup. The Department plans to pursue the most fiscally responsible 
and accelerated reduction path for cleanup of our complex.
              identify new missions for carlsbad and wipp
    Question 3. Is the Department supportive of identifying and 
supporting new missions for Carlsbad and WIPP to ensure that the strong 
community support for the project continues?
    Answer. The Department recognizes that accelerating the mission of 
the Waste Isolation Pilot Plant (WIPP) is of concern to the local 
communities in southeast New Mexico. We are supportive of the efforts 
of the leaders in Carlsbad and the nearby community of Hobbs to develop 
plans for diversifying the local economies in anticipation of WIPP 
completing its mission earlier than originally planned.
                Response to Question From Senator Graham
                 environmental management--new approach
    Question 1. Among the most ambitious and far-ranging missions of 
the Department of Energy is that performed by the Office of 
Environmental Management to mitigate the risk of hazards posed by the 
legacy of nuclear weapons production and research. I am encouraged by 
the work that the Department of Energy does in coordination with the 
Nation's universities to research, develop, and demonstrate innovative, 
cost-effective technologies to solve crucial environmental problems as 
they relate to the accelerated cleanup of nuclear facilities and the 
promotion of the health and safety of workers and surrounding 
communities. Universities, such as the Hemispheric Center for 
Environmental Technology at Florida International University in my home 
state of Florida, have proven that they can play an integral role in 
these daunting efforts to cleanup contaminated water, soil, and 
structures. I hope that the Department of Energy will continue to work 
in cooperation with qualified, flexible and cost-effective university 
partners to achieve its mission. I have heard concerns that re-
organization of the Environmental Management Program could result in 
limiting the program to only big corporate partners. Does the 
Department of Energy share these concerns? What are the Department's 
plans to maintain and expand effective university-DOE partnerships?
    Answer. The Office of Environmental Management (EM) is committed to 
utilizing the expertise of all entities--whether private-sector 
companies, universities, not-for-profit institutions, etc.--that can 
offer timely, cost- and technically-effective solutions to solve 
cleanup challenges across the EM complex. Cleanup of the Department of 
Energy complex is one of the most technically challenging environmental 
tasks the Nation has faced, and there still are environmental problems 
that remain intractable. To address these, we continue to need long-
term, basic research that can result in breakthrough technologies, work 
that our national laboratories and universities have traditionally 
performed for EM under the auspices of the EM Science Program. Starting 
in FY 2003, the Department intends to integrate the EM Science Program 
into the Office of Science's Office of Biological and Environmental 
Research, within a new Environmental Remediation Sciences Division. 
This will result in more efficient research management and better 
leveraging of other basic science tools within the Office of Science, 
including their user facilities. Beginning in FY 2003, the Office of 
Science will support work at the national laboratories and universities 
relevant to the EM cleanup effort as appropriate.
    In addition, EM is focusing its research and development activities 
on a limited number of alternative technology projects aimed at solving 
specific site problems that pose significant risk, cost and schedule 
challenges.
                                 ______
                                 
                              Department of Energy,
               Congressional and Intergovernmental Affairs,
                                Washington, DC, September 24, 2002.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: On July 11, 2002, Jessie H. Roberson, Assistant 
Secretary for Environmental Management, and Dr. Aristides Patrinos, 
Associate Director for Biological and Environmental Research, Office of 
Science, testified regarding the department's process in implementing 
its accelerated cleanup initiative and the changes the department has 
proposed to the Environmental Management Science and Technology 
Program. On August 27, 2002, we sent you the answers to 14 questions 
for this hearing.
    Enclosed is the one remaining answer to a question submitted by 
Senator Craig to complete the hearing record.
    If we can be of further assistance, please have your staff contact 
our Congressional Hearing Coordinator, Lillian Owen, at (202) 586-2031.
            Sincerely,
                                        Michael D. Whatley,
                              Principal Deputy Assistant Secretary.
[Enclosure]
                Response to Question From Senator Craig
                  subsurface geoscience--national need
    Question 6. Dr. Patrinos, there have been several National Academy 
reports indicating that additional research is needed to adequately 
understand and predict the transport and transformation of toxic 
materials in the subsurface. EM is now looking to your program--the 
Office of Science--to provide the needed R&D.
    Is your budget adequate and do you have the necessary facilities to 
carry out this research and technology development?
    Answer. The Environmental Management Science Program (EMSP) has had 
a large focus on subsurface science since its inception and continues 
to do so--about 1/3 of the total EMSP funding supports research in this 
area. In addition to the EMSP program, the Office of Science (SC) has a 
long history of basic research in this area, and today, two programs 
are particularly relevant: the Natural and Accelerated Bioremediation 
program (NABIR) in the Biological and Environmental Research (BER) 
program and the Geosciences program in the Basic Energy Sciences 
program. The NABIR program is focused entirely on environmental 
management problems and contains a large component of biogeochemistry--
a critical element in subsurface contaminant transport. We are also 
collaborating with the National Science Foundation and are cosponsoring 
environmental centers at universities that focus on DOE subsurface 
science questions. The BES Geosciences program supports research at 
universities and national laboratories to provide a foundation of 
scientific understanding and research technology to underpin multiple 
DOE missions in energy supply, geological carbon sequestration, and 
environmental quality.
    Also, the Office of Science has a number of facilities that support 
subsurface research: there is a fast-growing community that is using 
DOE's Synchrotron Light Sources, BER's Environmental Molecular Science 
Laboratory at Pacific Northwest Laboratory, and its NABIR Field Test 
Site at the Oak Ridge National Laboratory. Taking these programs and 
facilities together, we believe we have the necessary resources for the 
subsurface sciences.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

     Statement of Susan Dayton, Director, Citizen Action/New Mexico
                               background
    Citizen Action is a 16-member coalition of neighborhood 
associations and local organizations representing over 20,000 citizens 
advocating for clean up of a hazardous waste dump known as the Mixed 
Waste Landfill located at Sandia National Laboratories in Albuquerque, 
New Mexico.
                                preface
    On May 8, 2002, the State of New Mexico signed a ``Letter of 
Intent'' with the U.S. Department of Energy (DOE) with the goal of 
meeting specific ``environmental responsibilities'' regarding 
contaminated sites at DOE facilities in New Mexico. That the State of 
New Mexico signed this letter was a cause for concern and alarm among 
many members of communities and environmental groups in the State of 
New Mexico that have been working diligently to ensure that 
contaminated sites are reviewed thoughtfully on a case-by-case basis in 
a manner protective of present and future generations.
    The ``Letter of Intent'' signed by Pete Maggiore, Secretary, the 
New Mexico Environment Department, states that when ``clean up'' of DOE 
waste sites is completed it will result in:

          1. Reduced risk from New Mexico's legacy waste sites;
          2. Allowing the NNSA to focus on expanding its core national 
        security mission;
          3. Support of DOE's mission to expedite transuranic (TRU) 
        waste to the Waste Isolation Pilot Project (WIPP) in Carlsbad, 
        New Mexico;
          4. Providing a significant benefit to New Mexico and the 
        nation by reducing the potential environmental, public, and 
        worker health and security risks posed by TRU.

    Additionally, the agreement:

          1. Defines likely future land use scenarios and associated 
        clean up standards;
          2. Supports necessary actions to ensure long-term 
        effectiveness of institutional controls;
          3. Supports predictive modeling;
          4. Supports implementation of a Long-Term Environmental 
        Stewardship (LTES) program working with regulators and 
        surrounding communities;
          5. Shortens review periods between regulators and project 
        execution;
          6. Seeks additional state funding;
          7. Accelerates risk reduction and completion of environmental 
        ``clean up.''

    Like many other state agencies the mission of the New Mexico 
Environment Department is to protect human health and the environment. 
After thoroughly examining these goals and objectives many concerns 
have risen regarding the intent of the DOE and the state agencies that 
have signed onto to this plan and what this plan, if implemented, holds 
regarding safety and welfare of the public.
                  what does the national academy say?
    Human beings are not capable of maintaining anything over the long-
term. The National Academy of Sciences (NAS) has criticized DOE's long-
term environmental stewardship program (LTES). In its 2000 report: 
``Long-Term Institutional Management of U.S./DOE Legacy Waste Sites,'' 
the NAS states that DOE's LTES program will be ``difficult, if not 
impossible, to achieve . . . and residual wastes will remain posing a 
threat to human health and the environment'' (National Academies, ix, 
1). The NAS study cites many examples of failed stewardship at DOE 
sites within the first 5 years. Signs, fences, zoning restrictions and 
other physical and institutional ``controls'' designed as alternatives 
proposed by the DOE to keep people from getting exposed to waste will 
not outlast the long-lived radioactive materials buried at these sites.
    Research conducted by the Institute for Energy and Environmental 
Research (IEER) shows that clean up of these waste sites to standards 
reflective of a ``subsistence farmer scenario'' will ``ensure the 
health of future generations, of land and water resources, and of 
ecosystems thousands of years into the future'' (Science for Democratic 
Action, p. 1). The subsistence farmer scenario makes scientific sense 
as it minimizes risk and reduces the large number of uncertainties 
associated with assessing the impact of contamination at these sites on 
future populations. This scenario also removes any additional elements 
that nay contribute to breakdown of the system, such as a designated 
usage for interim status of a site.
    However, the DOE has chosen the cheapest way out to deal with these 
waste sites. Under DOE's accelerated clean up the majority of legacy 
sites will be covered over, and monitored under LTES. In reality, 
``accelerated clean up'' is not accelerated clean up at all, but rather 
accelerated ``cover up.'' For example, clean up at Sandia National 
Laboratories, New Mexico (SNL/NM) has been ``accelerated'' from 2009 to 
2006, and accelerated clean up of literally hundreds of waste sites at 
Los Alamos National Laboratory, our state's most contaminated DOE 
facility, will be completed by 2015. Neither time table leaves room for 
any true remediation of waste sites at these two facilities. At Los 
Alamos radioactive waste continues to be buried in unlined pits and 
trenches, has contaminated the ground water and surface waters, 
including the Rio Grande, Albuquerque's future source of drinking 
water.
                    case study: accelerated cover up
    The DOE is doing all it can to relax clean up standards not only at 
waste sites located outside of urban areas (which may well be future 
locations for towns and cities), but also at sites presently located in 
or very close to populated, urban areas. The Mixed Waste Landfill (MWL) 
is one such site located at Sandia National Laboratories, New Mexico 
(SNL/NM). The 2.6-acre landfill contains both radioactive and hazardous 
waste in unlined pits and trenches situated over Albuquerque's sole 
source aquifer. Several other waste sites adjacent to the MWL at SNL/NM 
have already released contaminants to the aquifer. Like most legacy 
sites the inventory of the MWL is poor; however, the long-lived 
radioactive waste and large quantities of lead will be hazardous 
essentially forever. Despite outcries from communities the DOE intent 
is to cap the landfill and implement LTES.
     relaxing clean up standards, spending less money, taking less 
                             responsibility
    If implemented as planned DOE legacy waste sites, such as the Mixed 
Waste Landfill, will fall victim to this plan. The landfill is located 
on Albuquerque's East Mesa, an area predicted to be at the top of the 
list in terms of future development. In less than 10 years a community 
(Mesa del Sol) consisting of hundreds of families will be living next 
to this radioactive pit of wastes with a nature park located just over 
a short mile from the waste site. However, to save money, and ``reduce 
risk to the public'' the DOE has chosen not to clean this site up, 
instead placing it under LTES with no financial assurance mechanism to 
guarantee long-term monitoring, maintenance and any other post closure 
activities associated with this site. As members of the public, as tax 
payers and recipients of the potential future effects associated with 
this waste, we are supposed to believe that DOE has our best interests 
at heart. We are supposed to believe their misleading statements about 
the landfill over the last two years and believe their ``accelerated 
clean up'' is truly clean up. We are supposed to believe this is a 
credible program though it lacks financial assurances necessary to 
monitor these sites even for a short while in the grand scheme of time. 
We are supposed to accept without question, verbal assurances from the 
nation's biggest polluter that ``long-term protection of human health 
and the environment'' is its primary mission while continuing to spend 
trillions manufacturing more nuclear weapons, while at the same time 
proving it is incapable of cleaning up its waste while continuing to 
generate more waste.
    While keeping this mission in mind, the DOE is already attempting 
to pawn off many of its waste sites destined for LTES to other federal 
agencies to manage. These agencies lack the necessary budgets and 
technical expertise crucial to maintaining these sites over the long-
term. Other ways for the DOE to save money while increasing risk to the 
public is through the designation of contaminated lands to the status 
of national wildlife refuge areas. The DOE has a host of arguments why 
this is a good plan. However, this plan does nothing to protect human 
populations that may be flourishing in these areas in the future. A 
wildlife refuge designation cannot and should not be used to assess how 
these contaminated areas will be used centuries from now. Furthermore, 
the proposals ``have not taken into account the long-term evolutionary 
impacts on wildlife, increases in organic matter on site that may 
result in a more rapid radionuclide migration, and complex pathways to 
humans due to the interaction of wildlife and people in a densely 
populated area (Science for Democratic Action, p.5).
                 results from independent peer reviews
    Independent peer review is the cornerstone on which sound science 
is built. It is the universally-accepted process accepted by the 
scientific community as a means to ensure that intrinsic biases are 
filtered out and sound science prevails. Our organization has 
commissioned a number of independent reviews on the work performed by 
SNL/NM at the MWL. An independent peer review of SNL/NM's risk 
assessment of tile MWL pointed to several deficiencies, and as a result 
SNL pulled their risk assessment from state-review. Please see these 
independent peer reviews on our website at: www.radfreenm.org. It is 
our position that the assessments of potential risks associated with 
this particular landfill, touted as a ``flagship'' site for 
implementation of LTES are based on agency policy instead of sound 
science. We have requested the DOE provide funding for an independent 
peer review of the Corrective Measures Study for the MWL ordered by the 
New Mexico Environment Department, and currently await a reply from 
John Arthur, Manager, DOE Albuquerque Operations Office.
                state-issued ``environmental covenants"
    Another issue of concern is a state-created ``environmental 
covenants'' document. The DOE has stated that these ``environmental 
covenants'' represent an essential component in its ``accelerated clean 
up'' program. The word, ``environmental covenants,'' like ``long-term 
environmental stewardship,'' implies a ``binding and solemn'' 
commitment for long-term protection of the environment. However, used 
in this sense these terms are simply a bastardization of the true 
meaning of ``protection.'' The environmental covenants being created by 
the state are simply another form of state-sponsored ``long-term 
stewardship'' that will likely result in clean up of sites to a lesser 
standard, such as the ``industrial use scenario'' standard proposed for 
the MWL interim designation of a waste site such as industrial land 
use, recreational use, etc.) resulting in additional increased risk to 
the public over the long-term.
                             who benefits?
    The Letter of Intent states that there are many benefits to be 
obtained from DOE's ``accelerated clean up'' program. The primary 
beneficiaries of this plan is the DOE's budgetary constraints; those 
employed by the DOE and its contractors; staff employed by the state 
who participate in DOE's LTES meetings; the State of New Mexico, who 
stands to gain substantial increases in funding from signing onto such 
a plan; and a few longtime supporters of the DOE. History repeats 
itself. The real losers on this plan are members of the public who are: 
1) unaware of these issues; 2) future generations who will ultimately 
bear the health consequences and financial responsibilities for this 
waste.
                            risk reduction?
    The ``Letter of Intent'' signed by Pete Maggiore, Secretary, the 
New Mexico Environment Department, states that when ``clean up'' is 
completed it will result in:
1) Reduced Risk From New Mexico's Legacy Waste Sites
    The DOE states that it is committed to delivering ``risk reduction 
at a reasonable cost'' to American taxpayers. Most Americans - and New 
Mexicans - are unaware of these issues, even while they live within 
close proximity to a waste site or in downstream communities located in 
Los Alamos, Santa Fe and Albuquerque. The DOE maintains ``accelerated 
clean up and LTS'' will result in ``reduced risk to the public.'' There 
are absolutely no studies that show the DOE's ``accelerated clean up `` 
program will result in reduced risk to the public in New Mexico or the 
nation from legacy waste sites. Reports by the National Academy, 
independent experts, and others suggest that risk to the public under 
DOE's plan will actually increase instead of decrease. The DOE's 
``accelerated clean up'' and LTES programs are not based on sound 
science, in fact, they are not science-based at all, but based solely 
on budgetary constraints.
         for reasons of national security: a repeat of history
    The ``Letter of Intent'' signed by Pete Maggiore, Secretary, the 
New Mexico Environment Department, states that when ``clean up'' is 
completed it will result in:
2) Allowing the NNSA to Focus on Expanding Its Core National Security 
        Mission
    There are distinct similarities between the ``expanding core 
national security mission'' of the NNSA and a time in our country's 
history during the making of the atomic bomb and subsequent Cold War 
years. This was a time when the American people were lied to, poisoned, 
and experimented on. People were put in harm's way for reasons of 
``national security.'' The ramifications of this policy were not 
realized until many years later: the government had sold out its own 
people. The DOE's ``accelerated clean up and long-term environmental 
stewardship program'' has been conceived by the same agency responsible 
for historically placing members of the public in harm's way for 
reasons of national security. However, this time the ramifications 
associated with DOE's ``accelerated clean up'' may not be realized 
until a much longer time, over the course of several generations, time 
enough to sufficiently blur the associations between the impacts to 
human health and environment from dangerous wastes that will remain in-
situ, covered over, mismanaged, and forgotten.
                            recommendations
    Creation of a new model based on independent sound scientific 
analysis and public participation through the following:

          1. Abandonment of DOE's current program proposal and its 
        misleading title, ``accelerated clean up;"
          2. Establishment of a consortium of national experts, 
        independent of the DOE in terms of funding and direction, that 
        would include National Academy of Sciences scientists and 
        engineers, among other national experts charged with thinking 
        ``outside the box;'' (i.e.), long-term protection of human 
        health and the environment utilizing a number of methods, 
        including excavation of contaminated sites in some cases on a 
        site-by-site basis;
          3. Establishment of a consortium of national experts 
        representing a variety of disciplines to study applied 
        technologies for solving the nation's long-term waste problems 
        based on sound science and reduced risk instead of decision-
        making guided solely by budgetary constraints;
          4. Establishment of a fund for independent peer review 
        activities whereby nongovernmental organizations (NGOs) can 
        apply for third party funding to conduct a range of 
        multidisciplinary studies on waste issues as a means of 
        enhancing the clean up process;
          5. In place of the ``special interest'' citizen groups 
        supported, funded and fed by the DOE to support its 
        ``accelerated and long-term stewardship program'' as a means of 
        fulfilling its ``public involvement'' criteria, the 
        establishment of a Congressionally appointed panel composed of 
        citizens who represent affected areas to participate in 
        hearings and discussions, and offer guidance to consortium 
        members from a citizen's perspective with respect to 
        contaminated sites located near their communities.

    Senators, each of you has a choice: to support a plan based on 
sound science that will result in the protection of the environment and 
in doing so protection of the long-term health of the American public 
or acceptance of a cheap substitute under a plan conceived by the 
agency responsible for creating the waste. Please don't write us off as 
many states already have. The power to protect future generations of 
Americans lies with each of you. Thank you for your consideration in 
this important matter.

References:

    1. The National Academies. Long-Term Institutional Management of 
U.S. Department of Energy Legacy Waste Sites. Washington: The National 
Academy of Sciences, 2000.
    2. Science for Democratic Action, ``Setting Cleanup Standards to 
Protect Future Generations.'' Institute for Energy and Environmental 
Research, Volume 10: 3, May 2002.
                                 ______
                                 
Statement of Jerry Meninick, Chairman, Radioactive and Hazardous Waste 
                Committee, Yakama Nation, Toppenish, WA
                           executive summary
    The United States Department of Energy ``Performance Management 
Plan for the Accelerated Cleanup of the Hanford Site'' (Hanford AC 
Plan) consists of three primary elements:

          1. A fundamental redirection in the Federal government's 
        policy away from nuclear waste cleanup and towards on-site 
        disposal or abandonment of the most dangerous and long-lived 
        toxic waste in existence.
          2. A massive reduction in the Federal commitment to restore 
        contaminated natural resources, allowing a major reduction in 
        the projected cleanup budget.
          3. A blunt carrot-and-stick incentive program for 
        `accelerated cleanup': near-term budget increases for sites 
        which adopt the plan, budget cuts for those which do not.

    The stated objective of the Hanford AC Plan is reasonable: finish 
cleanup sooner to reduce costs. The U.S. Department of Energy (DOE) has 
documented in great detail the primary cause of inflated nuclear 
cleanup budgets: poor contract management and a lack of cleanup 
endpoints. The principal findings of the six month DOE ``Top-to-Bottom 
Review'' (February, 2002) confirms this conclusion.
    Rather than focus on achieving clear cleanup targets through 
greater efficiency, however, the Hanford AC Plan achieves paper cost 
reduction by simply doing less cleanup. The plan describes two 
principal means for reducing costs:

  <bullet> ``Reclassifying'' wastes, which allow them to be processed 
        and buried near the surface without the permanent barriers 
        required by Federal law.
  <bullet> Simply leaving immense quantities of waste in place and 
        restricting access to large tracts of land and natural 
        resources, often permanently, under the nuclear ``stewardship'' 
        policy.

    The Hanford AC Plan is a short-sighted effort which derails the 
cleanup program in favor of a `quick-fix.' Cost efficiency for nuclear 
waste cleanup is not only desirable, but necessary. Ultimately, 
however, even greater costs will be incurred if this approach is 
adopted, as waste is allowed to migrate and contaminate larger areas, 
threatening health.
    There are narrow elements within the plan which are reasonable, and 
they involve immediately stabilizing waste which poses an imminent 
hazard. However, there is support in neither policy nor law, including 
Treaty law, to support creation of the world's first major sacrifice 
zone near one of the great natural resources of the world, the Columbia 
River. Most of the Hanford Site has been now designated a National 
Monument as a result of its exceptional natural resources, and it is of 
immeasurable significance and value to the Yakama Nation as a reserve 
on which to practice Treaty rights guaranteed in the Treaty of 1855 as 
the land is restored.
    In order to assist in the immense undertaking of restoring the 
Hanford land and resources, the Hanford AC Plan must address the human 
rights and needs of real people. Following some four decades of 
secrecy, and at times deception, the Federal government made a partial 
admission about the cost of its weapons program at Hanford. In 1986, 
the Department of Energy released thousands of pages of formerly secret 
documents which detailed the exposure of unknowing citizens to 
radiation from Hanford.
    The cost of these actions have not been born evenly. Yakama Tribal 
members practicing Treaty rights maintained a diet and lifestyle which 
exposed them to severe levels of risk from Hanford emissions. The 
Federal government has yet to account for the harm done to these 
people. Instead, the government has budgeted tens of millions of 
dollars to pay attorney fees to defend corporations which operated 
Hanford on behalf of the government, funds which are still used to 
fight claims for injury to people and to deny or minimize harm done in 
the past. It will be difficult for Tribal people to accept cleanup 
measures deemed to be protective of Tribal health until the time that 
the Federal government makes a full and honest admission concerning 
past harm done to Tribal people in the name of national security.
    At the level of government-to-government relations, much work 
remains to be accomplished. The Yakama Nation is a sovereign 
government, as described in greater detail below. While the Department 
of Energy claims to `recognize' and `honor' and `respect' Yakama Treaty 
rights, it has yet to achieve the truthful admission that compliance 
with Treaty rights is a legal requirement for Hanford cleanup.
    DOE achieved a landmark as an agency when it recognized that it was 
subject to external regulatory authority. It now commits routinely to 
achieve compliance with the Tri-Party Agreement, a legal vehicle 
subservient to a Treaty with the United States government which must be 
signed by the President and ratified by the Senate under the rule of 
the Constitution. But in 2002, rather than commit to Treaty compliance, 
the Hanford AC Plan commits to

        ``considering . . . values of area Tribal Nations and 
        stakeholders'' and to ``maintain productive relationships with 
        Tribal Nations and stakeholders.''

    DOE fulfillment of its trust obligations to the Yakama Nation, its 
obligations to consultation, and its legal mandate to achieve Treaty 
compliance would serve as a tremendous achievement for DOE with unknown 
and potentially positive benefits. Conversely, control of the Yakama 
Nation through the funding process to satisfy implementation of the 
Accelerated Cleanup plan is unacceptable, and diminishes the stature 
and potential of the Department of Energy.
   chronology of development of the hanford accelerated cleanup plan
July 31, 2001

    On order of Secretary of Energy Spencer Abraham, Assistant 
Secretary Jessie Roberson initiates a ``Top-to-Bottom Review'' of the 
Environmental Management Program.

August, 21 2001

    Secretary Abraham Reaffirms the Department of Energy's Government-
to-Government Relations with American Indian Tribal Governments.

November 19, 2001

    Memorandum from Asst. Sec. Jessie Roberson instructs DOE EM to cut 
$100 billion from the cleanup program and ``eliminate the need to 
process high level liquid wastes.''

January 31, 2002

    Secretary Abraham announces a $6.7 billion FY 2003 DOE budget, 
which includes an $800 million ``expedited cleanup account'' for sites 
which adopt accelerated cleanup.

February 4, 2002

    Top-to-Bottom Review of the DOE Environmental Management Program is 
released: principal finding is that contract management must be 
improved to reduce cleanup costs.

February, 2002

    Secretary Abraham and Under Secretary of Energy Robert Card meet 
with Washington Governor Locke and other State officials in a series of 
meetings to discuss the accelerated cleanup plan, the expedited cleanup 
account, and revisions to the Tri-Party Agreement.

March 5, 2002

    Letter of intent signed by Department of Energy, State of 
Washington, and U.S. Environmental Protection Agency to accelerate 
Hanford Site cleanup and provide $433 million from the DOE expedited 
cleanup account to Hanford for FY 2003.

April 8, 2002

    The State of Washington provides comments to DOE on the March 28, 
2002 version of the draft Hanford Accelerated Cleanup plan.

May 1, 2002

    The draft ``Performance Management Plan for the Accelerated Cleanup 
of the Hanford Site'' is released to the public.

June 26, 2002

    Government-to-government consultation with the Yakama Nation has 
not occurred, to date, on the Hanford Accelerated Cleanup Plan.

July 1, 2002

    Comment deadline for the Hanford Accelerated Cleanup Plan.

    August 1, 2002

    Deadline for completion of the final Hanford Accelerated Cleanup 
Plan.
          federal trust obligations to the yakama nation and 
                       consultation requirements
    ``Tribes are sovereign governments. Before Europeans first sailed 
to America, the tribes were already sovereign by nature. They conducted 
their own affairs and depended upon no other source of power to uphold 
their acts of government. The U.S. Constitution recognizes four 
sovereign governmental entities: the Federal government, state 
governments, American Indian tribal governments, and foreign nations. 
American Indian tribes, though uprooted and removed to reservations, 
retain inherent sovereignty. The United States did not grant tribal 
rights, rather, tribes reserved such rights as part of their 
preexisting status as sovereign nations.
    ``Tribes are not treated as mere administrative extensions of 
federal programs, but as separate governments. They are sovereign 
entities, recognized in the U.S. Constitution with rights and 
privileges negotiated in treaties and defined in case law. Interaction 
with federally recognized tribes must be conducted on a government-to-
government basis. This is in addition to and goes beyond any public 
involvement and community outreach efforts.
    ``Government-to-government consultation occurs between federal 
agencies and elected tribal leaders.
    ``DOE's trust responsibilities include:
    ``Consulting, to the greatest extent practicable and to the extent 
permitted by law, with tribal governments prior to taking actions that 
affect federally recognized tribal governments.

and

    ``Protecting `reserved' rights (such as hunting and fishing rights 
that were specified in treaties as retained or reserved even though the 
lands are not part of the reservation).''

(From ``A Guide for DOE Employees, Working with Indian Tribal Nations, 
``DOE/EM0571, December, 2000)

    Despite these requirements for DOE government-to-government 
consultation on matters which affect the Yakama Nation tribal 
government, DOE failed to consult with the YN during development of the 
Hanford accelerated cleanup plan. Though this plan materially affects 
Yakama Nation Treaty rights, consideration of such rights through 
consultation with elected Tribal officials were omitted entirely during 
this process.
                            general comments
    The Draft ``Performance Management Plan for the Accelerated 
Cleanup' of the Hanford Site, May, 2002'' (Hanford AC Plan) is designed 
to reduce costs of environmental restoration at Hanford. The Hanford 
Nuclear site, located on Yakama Nation (YN) ceded land, is the most 
heavily contaminated site in the Western Hemisphere, and the largest 
Superfund site in the United States.
    Yakama Nation Treaty rights are affected by the Hanford AC Plan. 
Though the U.S. Department of Energy (DOE) developed the Draft Hanford 
AC Plan over several months, and consulted extensively with the State 
of Washington during its development, it has yet to consult with the 
Yakama Nation on the Plan at the time of these comments. (See 
Chronology above.)
    United States law regarding environmental protection and 
restoration has evolved over the past several decades. A number of 
Federal statutes have been enacted to protect natural resources and 
human health, including the Clean Air Act, Clean Water Act, Nuclear 
Waste Policy Act, Endangered Species Act, Resource Conservation and 
Recovery Act, and the Comprehensive Environmental Response, 
Compensation, and Liability Act. The trend over decades has been 
towards increasing levels of protection for humans and other biota from 
toxic contaminants, often with the explicit goal of protecting human 
health and the environment and restoring damaged natural resources.
    The Treaty of 1855 between the Confederated Tribes and Bands of the 
Yakama Nation and the United States contains provisions which guarantee 
perpetual rights, including off reservation rights. Such rights are 
unequivocal and permanent absent a specific Act of Congress to the 
contrary.
    The presumption cannot be made that DOE intends to fulfill its 
trust obligations to the YN, which includes conducting consultation 
with the YN on the Hanford AC Plan.
    Absent such fulfillment of its trust obligations, the following 
general comments are provided on the Plan, as well as more specific 
comments as denoted below.
    While the Draft AC plan states environmental restoration goals for 
Hanford will be achieved at less cost by accelerating cleanup, most of 
the projected savings arise from simply accomplishing less cleanup.
    The Hanford AC Plan has a number of deficiencies:
    1. While called the Performance Management Plan for Accelerated 
Cleanup, this initiative is actually an Accelerated Closure plan. (In 
fact, the March 28, 2002 draft of the plan was called the ``Hanford 
Site Accelerated Closure Plan'') As a major reversal in Federal policy, 
the current plan calls for closure of the Hanford cleanup program. This 
would be accomplished through disposal of enormous quantities of toxic 
waste in the near surface environment on YN ceded land. In cases where 
known waste sites are difficult to clean up, the Hanford AC plan calls 
for simply leaving waste in place rather than isolating it from humans 
and the environment. The effect of this policy involves deferring 
cleanup costs to the future and escalating those costs--inevitably, 
waste left in place will migrate, spread over greater areas, and harm 
humans and the environment.
    2. DOE has documented in detail the primary reason for its 
excessive and steadily inflating costs for the nuclear waste cleanup 
program: contractor inefficiencies, incentives by contractors to 
inflate costs, and poor contract management. This problem arises from a 
basic institutional flaw in DOE whereby contractor management has 
historically been inverted, and contractors heavily influence policy, 
budgets, and even management of their own work. This core problem is 
not addressed in the Hanford AC Plan despite the potential for major 
cost reductions in the cleanup program--in fact, contractor budgets 
would significantly increase under the plan over the next several 
years. The Hanford AC Plan addresses this core problem with the nuclear 
cleanup mission with vague promises to ``improve the quality of our 
Contract solicitation processes'' and ``achieve clarity in our 
contracts with respect to the contract workscope'' and ``improve our 
contractor oversight.''
    3. Great technical uncertainties exist in the Hanford AC Plan. 
Rather than address such uncertainties directly, the AC Plan sets fixed 
cost reduction goals and milestones, and proposes to ``backfit'' 
technologies to meet those goals. Though the Plan states that risk 
reduction will guide cleanup, it omits the most important risk 
reduction requirements, i.e., characterization of waste and definition 
of acceptable end-states for cleanup.
    4. Significant legal and regulatory problems exist in the AC Plan, 
and these are documented extensively in the Plan itself under the 
``Uncertainties'' sections of Appendix A. On its face, implementation 
of the AC Plan would appear to violate a number of Federal statutes.
 legal and regulatory deficiencies in the hanford accelerated cleanup 
                                  plan
Yakama Nation Compliance Issues
    1. DOE has failed to meet its most fundamental trust obligation to 
the Yakama Nation, by failing to consult with the Tribal government on 
the Hanford AC Plan.
    2. DOE has repeatedly committed to achieving compliance with the 
Treaty of 1855 between the YN and the United States during Hanford 
cleanup. However, DOE rejects an enforceable agreement with the YN to 
accomplish compliance, and considers its unilateral actions sufficient 
to meet its enforceable trust obligations.
    3. Treaty compliance has yet to be integrated into requirements for 
DOE's Hanford cleanup documents, including the Hanford AC Plan.
    4. DOE states that risk reduction will guide cleanup in the AC 
Plan. However, an omission exists in the Plan with respect to the 
critical population at risk for cleanup endpoints, i.e., Tribal 
members. A recent EPA study demonstrated fatal cancer risks of 50 times 
and greater for Tribal members exercising Treaty fishing rights on the 
Columbia River, with the greatest risks occurring in the Hanford reach 
of the river.
    5. No consultation has occurred with the YN on DOE's `stewardship' 
plans with respect to impacts on YN Treaty rights. Such stewardship 
plans may involve permanent restriction of Tribal members from access 
to Treaty guaranteed resources.
General Compliance Issues
    1. The U.S. Department of Energy has undertaken a significant, 
major federal action in developing this Plan which guides and 
prescribes uses of federal resources upon which future actions will be 
based (40 CFR Sec. 1508.18 and Sec. 1508.27). Therefore, the Plan 
requires a NEPA analysis.
    2. High level waste tank closure alone is a significant, major 
federal action. The Hanford AC Plan appears to violate the intent of 
NEPA and ignore past commitments made in past NEPA records of 
decisions. For example, the TWRS ROD (Federal Register p. 8699) states, 
``DOE also will prepare appropriate further NEPA documentation before 
making decisions on closure of the tank farms. This documentation will 
address the final disposition of the tanks, associated equipment, 
soils, and groundwater, and will integrate tank farm closure with tank 
waste remediation and other remedial action activities.''
    3. Tank closure will require a permit from the Sate of Washington, 
which regulates 177 underground storage tanks under the authority of 
RCRA. The Washington Department of Ecology's authority is limited to 
the non-radiological fraction of the tank waste. USDOE needs to obtain 
a Part B permit from Ecology to close the tanks. Therefore, Ecology 
must perform a SEPA analysis as part of the permit process.
    4. Congress created a framework for disposal of high-level waste 
and commercial spent fuel in the Nuclear Waste Policy Act (NWPA) of 
1982. The Hanford AC Plan appears to reject application of the NWPA to 
Hanford tank waste. DOE is proposing to leave up to 360 m\3\ of high 
level waste in tanks and fill the void with grout or sand, an apparent 
violation of the NWPA.
    5. The Hanford AC Plan alludes to regulatory uncertainties with 
closing high level tank waste in place. These regulatory uncertainties 
should be discussed in detail in the final Accelerated Cleanup plan.
    6. Hanford high level waste tanks have yet to be fully 
characterized. Since Federal law specifies disposal requirements based 
on waste classification, characterization information necessary to 
classify tank wastes is mandatory.
    7. Though the Hanford AC Plan refers to separation of high level 
tank waste, it does not provide data on the quantities or fractions of 
waste proposed to be separated for vitrification, processing for on-
site disposal, or disposed of in place.
    8. Reclassification of HLW and TRU waste through administrative 
procedures involves an apparent violation of Federal statutes.
    9. Disposal of waste in canyon facilities may not meet isolation 
requirements under Federal law. Such facilities were designed as 
chemical separations plants, and were not intended to provide permanent 
barriers to waste migration.
     technical deficiencies in the hanford accelerated cleanup plan
    1. The Hanford AC Plan prescribes risk reduction as the technical 
basis for cleanup. DOE can only address risk reduction if it integrates 
risk to Tribal members into its risk framework. The AC Plan should 
describe how DOE proposes to accomplish this analysis.
    2. Risk reduction requires waste inventory data and measurable 
cleanup endpoints. DOE cannot achieve cleanup without this information, 
and such information should determine final remediation.
    3. ``Fast-track'' development of technologies, operations, and 
facilities should be abandoned. Careful analysis and comparison of 
alternative cleanup methods should be made in a transparent manner 
prior to making cleanup decisions.
    4. An analysis of the legal and technical suitability of 
experimental technologies, including steam-reforming, grouting, bulk 
vitrification, and fractional crystallization, to specific waste forms 
and end-states should be conducted prior to application on actual 
wastes.
                                summary
    The stated objective of the Hanford Accelerated Plan is sensible 
and timely--speed cleanup of nuclear waste, in order to reduce cleanup 
costs and restore contaminated natural resources more quickly. However, 
the means by which the AC Plan proposes to achieve this goal is fatally 
flawed--cleanup costs are to be reduced primarily by undertaking less 
cleanup, or in some cases, none at all.
    As noted above, the implementation of the AC plan would appear to 
violate a number of environmental laws, including NEPA, RCRA, and 
CERCLA. It certainly violates the broad intent of Congress under these 
laws, to restore contaminated sites in order to protect human health 
and the environment. Rather, the Hanford AC Plan proposes to create 
permanent sacrifice zones over large tracts of land, restricting human 
access as long as fences and barriers remain intact. The exclusion 
zones proposed by DOE are adjacent to the new Hanford Reach National 
Monument.
    The Yakama Nation believes that creation of such sacrifice zones 
would also undermine the Treaty of 1855 between the Yakama Nation and 
the United States. Under the U.S. Constitution, only a specific action 
of Congress can abrogate Treaty rights. DOE's plan for Hanford would 
result in unilateral abrogation of those rights, because access to 
ancestral land and resources would be permanently prohibited.
    The fundamental concern for the Yakama Nation is whether DOE has 
authority to abrogate or diminish Treaty rights on ceded land by 
abandoning toxic waste on that land. The Yakama Nation retains rights 
to hunt and gather food on the Hanford land, in addition to fishing at 
all usual and accustomed places. Cleanup actions must comply with the 
Treaty, to restore and protect such resources for consumption, absent 
some specific act of Congress to the contrary.
    DOE argues that Federal statutes allow for permanent exclusion 
zones, where access may be prohibited through deed restrictions, and 
that Treaty rights may be suspended or eliminated in those exclusion 
zones. Aside from the apparent violation of Yakama Treaty rights, the 
obvious threat to the Yakama Nation is that nuclear waste will pose 
health threats to Tribal members and risks to the environment far 
beyond the demise of deed restrictions and temporary barriers.
    DOE has lost sight of its own findings in developing the Hanford 
Accelerated Cleanup plan--namely, that cost efficiencies for the 
nuclear waste cleanup program can only be achieved by reforming its 
contractor management system. This was the primary finding in the 
``Top-to-Bottom'' review of the DOE Environmental Management program, 
which was meant to be the basis for the accelerated cleanup initiative. 
Rather than focus on this urgently needed reform, however, DOE is 
simply proposing to perform less cleanup to cut costs.
        proposed language for the final hanford accelerated plan
Page ES-1

    ``We are committed to use the processes and cleanup objectives 
within the Tri-Party (TPA) to deploy this plan. We are committed to 
meet our enforceable trust obligations to Indian Nations and achieve 
Treaty compliance during cleanup actions.''

Page 10

    ``Finally, we must establish risk exposure scenarios considering 
future land uses, including Tribal Treaty use scenarios, and the values 
of area Tribal Nations and stakeholders.''

Page 13

    ``Accelerating this work while achieving Treaty compliance is a 
priority for Tribal Nations.''

                                    

      

</pre></body></html>
